<html>
<title> - THE UNITED NATIONS: THE STATE OF ITS EFFICACY AND REFORM</title>
<body><pre>[Senate Hearing 106-706]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-706
 
        THE UNITED NATIONS: THE STATE OF ITS EFFICACY AND REFORM

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 10, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
67-221 CC                   WASHINGTON : 2000




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                     ROD GRAMS, Minnesota, Chairman
JESSE HELMS, North Carolina          BARBARA BOXER, California
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin

                                  (ii)

  




                            C O N T E N T S

                              ----------                              
                                                                   Page

Grams, Hon. Rod, U.S. Senator from Minnesota, opening statement..     2
Johnson, Harold Jim, Associate Director; accompanied by: Dr. 
  Tetsuo Miyabara, Assistant Director, International Relations 
  and Trade Issues, National Security and International Affairs 
  Division, General Accounting Office, Washington, DC............    26
    Prepared statement...........................................    30
Welch, Hon. C. David, Assistant Secretary for International 
  Organization Affairs, Department of State, Washington, DC......     3
    Prepared statement...........................................     8
    Response to questions posed by Senator Rod Grams.............    14
    Responses to additional questions for the record submitted by 
      Senator Jesse Helms........................................    25

                                 (iii)

  


        THE UNITED NATIONS: THE STATE OF ITS EFFICACY AND REFORM

                              ----------                              


                        WEDNESDAY, MAY 10, 2000

                               U.S. Senate,
          Subcommittee on International Operations,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 10:38 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Rod Grams (chairman of the 
subcommittee) presiding.
    Present: Senators Grams and Boxer.
    Senator Grams. Well, good morning. I would like to bring 
this hearing to order.
    I want to welcome all of you here and especially the two 
people that will make up our panels this morning: the Honorable 
C. David Welch, Assistant Secretary of State for International 
Organization Affairs; and on our second panel, Mr. Harold Jim 
Johnson, Associate Director for International Relations and 
Trade Issues, the National Security and International Affairs 
Division of the General Accounting Office. He will be 
accompanied by Tet Miyabara as well this morning. So, I want to 
welcome both of our witnesses to this hearing.
    Now, first I want to, of course, thank the witnesses for 
participating this morning. GAO is releasing a report \1\ today 
which looks at the progress that has been made since the 
Secretary General of the United Nations announced his 
intentions to reform the U.N. This morning I hope Secretary 
Welch will look at this report carefully because it does 
underscore major flaws in the ability of the U.N. to be an 
effective organization.
---------------------------------------------------------------------------
    \1\ The report, entitled ``United Nations, Reform Initiatives Have 
Strengthened Operations, But Overall Objectives Have Not Yet Been 
Achieved,'' report number GAO/NSIAD-00-150, can be accessed on the 
Internet at: http://www.gao.gov
---------------------------------------------------------------------------
    According to GAO, there is no system in place within the 
U.N. to monitor and evaluate program results and impact. In 
other words, the U.N. undertakes numerous activities on social, 
economic, and political affairs, but the Secretariat cannot 
reliably assess whether these activities have made a difference 
in people's lives and whether they have improved situations in 
a measurable way. I am very interested in the administration's 
assessment of how well the U.N. can demonstrate that it is 
making a difference without such a system in place.
    I am also eager to discuss the progress of reform in the 
peacekeeping area. However, given the situation in Sierra 
Leone, I want to take this opportunity to get the 
administration's view on why this train wreck, to use 
Ambassador Holbrooke's term, occurred and what is going to 
happen now. It is my considered opinion that 500 kidnapped U.N. 
peacekeepers and rebels riding around in U.N. armored personnel 
carriers reflects a lot more than a weakness in the DPKO; it 
reflects a short-sighted and ill-planned U.S. approach that is 
willing to jeopardize the future of U.N. peacekeeping for a 
symbolic show of support for engagement in Africa. A feel-good 
operation with no impact on keeping civilians safe and with 
peacekeepers held as hostages sounds a lot like a replay of 
U.N. forces in Bosnia. Have we not learned anything in the last 
couple of years?
    During the historic visit of members of the U.N. Security 
Council to the Senate, I was struck by an exchange between the 
Representative from France and the Chairman of the Armed 
Services Committee. Now, I already mentioned this in a hearing 
that I chaired last month, but it bears repeating. When 
Chairman Warner stated, ``Don't take on more than you can do, 
and do effectively,'' Ambassador Levitte replied, ``Is it 
morally possible to say `no' to populations which are 
desperately in need of help?'' Well, my rejoinder to that 
remains, ``Is it morally possible to say `yes' when you know 
the U.N. can't deliver?''
    The desire to make political statements of support for 
nations in turmoil appears to be drowning out considered 
opinion as to whether the U.N. is able to carry out the 
mandates that it has been given. The operation in Sierra Leone 
is not collapsing just because neither the U.N.'s management 
structure nor the financial system currently in place will 
support the projected expansion of peacekeeping in Africa. It 
is collapsing because as witnesses before this committee last 
month repeatedly stressed, unlike NATO, the U.N. is only 
successful when it takes on limited missions where a political 
settlement has already been reached. This was not the case in 
Sierra Leone.
    And equally as important, the use of peacekeeping 
commitments as political statements are obscuring the 
transformation of peacekeeping from the separation of 
belligerants into an exercise in nation building that goes far 
beyond what Congress may be prepared to accept. Under PDD-71, 
the administration is agreeing to endorse an indefinite U.N. 
commitment to govern distressed nations, from sewage to social 
services to setting up judiciaries, when we commit to 
supporting peacekeeping operations. I am not sure this Congress 
or our Nation is aware of the far-reaching implications of this 
Presidential decision directive.
    So, this morning I look forward to hearing your explanation 
of this and other matters, of course, relating to the United 
Nations as you testify today. So, Mr. Welch, thank you again 
for taking your time to be here to testify before this 
committee, and I would like to open it up for your testimony.
    [The opening statement of Senator Grams follows:]

                 Opening Statement of Senator Rod Grams

    First, I want to thank the witnesses for participating in this 
hearing. GAO is releasing a report today which looks at the progress 
that has been made since the Secretary General of the United Nations 
announced his intention to reform the U.N. I hope Secretary Welch will 
look at this report carefully, because it underscores major flaws in 
the ability of the U.N. to be an effective organization.
    According to GAO, there is no system in place within the U.N. to 
monitor and evaluate program results and impact. In other words, the 
U.N. undertakes numerous activities on social, economic, and political 
affairs, but the Secretariat cannot reliably assess whether these 
activities have made a difference in people's lives and whether they 
have improved situations in a measurable way. I am very interested in 
the Administration's assessment of how well the U.N. can demonstrate it 
is making a difference without such a system in place.
    I am also eager to discuss the progress of reform in the 
peacekeeping area. However, given the situation in Sierra Leone, I want 
to take this opportunity to get the Administration's views on why this 
``train wreck'' (to use Ambassador Holbrooke's term) occurred and 
what's going to happen now. It is my considered opinion that 500 
kidnapped U.N. peacekeepers and rebels riding around in U.N. armored 
personnel carriers reflects a lot more than weaknesses in DPKO; it 
reflects a short-sighted and ill-planned U.S. approach that is willing 
to jeopardize the future of U.N. peacekeeping for a symbolic show of 
support for engagement in Africa. A feel-good operation with no impact 
on keeping civilians safe and with ``peacekeepers'' held as hostages 
sounds a lot like a replay of U.N. forces in Bosnia. Haven't we learned 
anything since then?
    During the historic visit of members of the U.N. Security Council 
to the Senate, I was struck by an exchange between the representative 
from France and the Chairman of the Senate Armed Services Committee. I 
already mentioned this in a hearing I chaired last month, but it bears 
repeating. When Chairman Warner stated, ``Don't take on more than you 
can do, and do effectively,'' Ambassador Levitte replied, ``Is it 
morally possible to say `no' to populations which are desperately in 
need of help?'' My rejoinder to that remains, ``Is it morally possible 
to say `yes' when you know the U.N. can't deliver?''
    The desire to make political statements of support for nations in 
turmoil appears to be drowning out considered opinion as to whether the 
U.N. is able to carry out the mandates it has been given. The operation 
in Sierra Leone is not collapsing just because neither the U.N.'s 
management structure nor the financial system currently in place will 
support the projected expansion of peacekeeping in Africa. It is 
collapsing because--as witnesses before this committee last month 
repeatedly stressed--unlike NATO, the U.N. is only successful when it 
takes on limited missions where a political settlement has already been 
reached. That was not the case in Sierra Leone.
    And equally as important, the use of peacekeeping commitments as 
political statements are obscuring the transformation of peacekeeping 
from the separation of belligerents into an exercise in nation building 
that goes far beyond what Congress may be prepared to accept. Under 
PDD-71, the Administration is agreeing to endorse an indefinite U.N 
commitment to govern distressed nations--from sewage to social services 
to setting up judiciaries--when we commit to supporting peacekeeping 
operations. I'm not sure this Congress, or our nation, is aware of the 
far-reaching implications of this Presidential Decision Directive. I 
look forward to hearing your explanation of this, and other matters 
relating to the United Nations, as you testify today.

   STATEMENT OF HON. C. DAVID WELCH, ASSISTANT SECRETARY FOR 
   INTERNATIONAL ORGANIZATION AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Welch. Thank you, Senator. I appreciate the opportunity 
to come before you again to have this dialog with you about the 
issues that you have mentioned. I want to repeat our 
appreciation for your personal role, Mr. Chairman, in pursuing 
this reform effort, including your trip to the United Nations 
in January and your participation when the Security Council 
members came down here at the end of March. That kind of focus 
is critical to the agenda that we have, that we are pursuing 
together, for U.N. reform.
    I would like to go through this a little bit with you today 
and talk about the general status of U.N. reform efforts, 
concentrating on peacekeeping, which you have highlighted.
    I was not here for your hearing last month where 
peacekeeping was discussed, but I have read the transcript and 
seen the statements by the other witnesses. I can address some 
of the questions that you have raised to the best of my 
ability.
    We are approaching the 1-year anniversary of the Council 
resolutions authorizing four large, new missions, Mr. Chairman, 
in Kosovo, East Timor, Sierra Leone, and the Congo. These have 
brought critical new challenges and significant increases in 
peacekeeping costs and U.N. personnel on the ground, really a 
change in the circumstances that obtained from the middle 
1990's until recently. These changes justify your committee's 
interest in this matter and our own concern.
    But let me be clear. We believe that peacekeeping, I think 
as you do, sir, when done right, can be one of the most useful 
foreign policy tools we have. I would like to elaborate on this 
in three parts.
    First, I will describe what peacekeeping can accomplish 
under the right circumstances. Second, I will describe how it 
serves our national interest. Third, I will discuss what we are 
doing to make it work better so that it can better serve those 
national interests. I will, of course, conclude by talking 
about U.N. reform in general, particularly now that the GAO is 
releasing its report, which I have read and I commend. It is a 
very good job. And I would like to use the opportunity of this 
hearing, too, to mention our financial situation because that 
impacts directly on the reform effort.
    To discuss what peacekeeping can accomplish, we first have 
to define what we expect from these operations; in other words, 
what is success? When peacekeepers are deployed, the 
international community is taking a step toward repairing a 
breach of security and peace, averting a humanitarian disaster, 
stopping violations of human rights, supporting public 
security, or implementing a settlement.
    In taking on these responsibilities, peacekeeping provides 
breathing room and helps the agreements take root. They can 
allow refugees to go home, disarm combatants, enable citizens 
to live without fear, help bring war criminals to justice, and 
assist national leaders building democratic institutions.
    There have been some successes. In Mozambique, the U.N. 
mission served U.S. aims, separating, demobilizing, and 
reintegrating combatants; monitoring a cease-fire; and 
observing and verifying an election process. Mozambique is 
democratic and at peace.
    In Namibia, the U.N. served U.S. aims in that civilians, 
police, and military officers of the transition assistance 
group successfully facilitated democratic change.
    In Macedonia, U.N. missions served U.S. aims by containing 
the spread of Serbian terror, which allowed the Macedonians 
also to establish democratic institutions and to participate in 
Europe.
    Well, there are difficulties, of course, especially if you 
look at the history of violence in some of these situations, 
some of which remain very volatile. Sometimes when a peace 
agreement is signed and agreed by each and every one of the 
parties, the process is assaulted by one or the other of those 
parties. We know that the successful implementation of a 
negotiated settlement, however, may not necessarily proceed 
unless there are peacekeepers present to assist it. Sometimes 
peacekeeping has also failed altogether. You have spent some 
time in this room examining those cases, Bosnia, Somalia, and 
Rwanda, to mention some examples.
    But in keeping the focus on the positive, I think that 
peacekeeping can work, and I also believe it can be in our 
national interest.
    That does not take away from our willingness to act 
unilaterally if it is in our vital national interest. We have 
demonstrated our willingness to do so. We remain ready to do 
so.
    But at other times when our vital national interests are 
not threatened, we have an important stake in resolving the 
conflicts. In these situations, peacekeeping is a way to 
further U.S. interests while sharing the risks and the costs. 
That has been the case in Macedonia, Lebanon, Haiti, Eastern 
Slavonia, and elsewhere. And there are operations that continue 
around the world today where I think we would agree that that 
is the case.
    The four most prominent peacekeeping missions right now are 
good examples of this, and they are the ones that assume the 
majority of our attention and resources.
    Our interest in Kosovo stems from a longstanding desire for 
a stable, democratic, multi-ethnic Europe, no longer threatened 
by Soviet power, and our need to help the emerging democratic 
nations under a stable NATO-Russian cooperative security 
arrangement.
    In East Timor, we have important security, political, and 
commercial interests in Indonesia, one of the most populated 
nations in the world. It is an opportunity to resolve a problem 
that has been a source of regional tension and humanitarian 
concern for over two decades. We also want to support a close 
ally, Australia.
    In Sierra Leone, this is an 8- to 9-year civil war where we 
have had a clear humanitarian interest in helping to 
consolidate a peace and in supporting the British in what is a 
key country for them. The war in Sierra Leone not only 
generated large refugee flows and economic displacement, 
horrendous human rights violations, but it also led to the 
direct military involvement of some neighboring states.
    And in Democratic Republic of the Congo, the United States 
has an interest in supporting U.N. efforts to stabilize 
Africa's world war, its most widespread war in modern history. 
This war has not only destabilized one of Africa's largest 
countries, but also threatens to spill across nine borders and 
destabilize much of central Africa.
    To put it another way, when we support U.N. peacekeeping 
operations, we are not in it just for the sake of peace, we are 
in it because we think this peace is important to our 
interests.
    This brings me to a third point, sir. Even when 
peacekeeping can succeed and even though it may serve U.S. 
interests, it can do neither unless we look at the way the U.N. 
performs peacekeeping operations while at the same time keeping 
member states' support for those operations.
    We have an emphasis on peacekeeping reform, and that is 
nothing new. We can wield considerable influence, particularly 
through the Security Council decisionmaking process, on 
peacekeeping. And we have used that influence in recent years.
    There have been some notable reforms in the Department of 
Peacekeeping Operations. For example, giving the Secretariat an 
effective situation center for running missions; simplifying 
operations and reducing costs through a contingent-owned 
equipment system which, if performed well, would help missions 
get the materials they need at the time when they need them; 
improving mission planning by thorough ``lessons learned'' 
reviews of past operations; working to improve the recruitment, 
training, deployment, and logistical support of civilian police 
operations; improving rapid deployment capabilities by 
establishing a U.N. logistics base and standby arrangements.
    These steps are a good beginning, but they are not 
sufficient. Let me sketch for you some of the reforms in the 
area of peacekeeping that are among our priorities.
    We are concerned that DPKO, the Department of Peacekeeping 
Operations, is stretched too thin. The Secretary General agrees 
with that judgment and has informed the Security Council of his 
view. We are working to correct the shortfall. There has to be 
sufficient personnel both in New York and on the ground, 
otherwise these operations, in our view, cannot succeed.
    There is no quick fix to this. We are supporting the 
Secretary General's review, which he launched in April, of 
peacekeeping in general and of his particular attention to 
looking at ways to enhance the permanent staff of DPKO and ways 
in which that could be supplemented. This is especially 
important in view of the change that has occurred and the 
resultant greater demand for civilian police as a component of 
some of these operations. That is a primary purpose of the 
Presidential Decision Directive you mentioned, Mr. Senator, 
PDD-71, which directs the administration to enhance our 
civilian police capacities and also to help enhance the CIVPOL 
capacities of the U.N. and member states.
    Another key issue is use of experts-in-kind at the United 
Nations, including civilians, not just military. DPKO has 
suffered from the member states' decision, over our objections, 
to curtail these experts-in-kind. Nowhere near as many U.N. 
slots have been made available to make up the difference of the 
shortfall when gratis military officers were removed, while 
other U.N. departments continue to have what is in our view an 
abundant and generous staffing pattern.
    There are also questions involving the quality of troops 
and equipment and the resources devoted to peacekeeping 
operations, financial in particular, which need to be 
addressed.
    It is our judgment, Mr. Chairman, that Secretary General 
Annan is an ally in this reform effort. He has appointed this 
blue ribbon panel to look closely at how the U.N. can improve 
its performance. There are two Americans on that panel, Brian 
Atwood and William Durch. We are contributing some ideas and 
thoughts to them so that they can pursue the inquiry.
    But reform efforts in the area of peacekeeping are just 
part of broader efforts to reform the U.N. which are the main 
subject of the hearing today, efforts that have brought some 
tangible results also. While there are many organizational and 
management improvements, others are still in process, as I 
think the GAO correctly observes in its report that it is 
releasing today.
    One of the most significant reforms was carried out in 1995 
when the U.N. established the inspector general function for 
the first time, the Office of Internal Oversight Services 
[OIOS]. Now we are going through the first transition to a new 
director of that, a gentleman we have gone out and met and who 
appears well motivated and capable of taking up this job. Carl 
Paschke, his predecessor, did an excellent job.
    There are other improvements in recent years which are 
highlighted in the GAO report. I will just mention a couple 
here. Consolidation and restructuring of the economic and 
social affairs departments; establishment of a Deputy Secretary 
General slot with a cabinet-style management structure. I think 
the good thing about that is not only was it established, but 
the person who is filling that job is quite capable and 
energetically moving to address some of the management and 
coordination issues that come up in the U.N. A code of conduct 
has been implemented to foster greater accountability. There is 
a performance appraisal system that is being implemented.
    While this has been done, there is a lot more that needs to 
be accomplished. I think when I read the GAO report, not only 
did they have some specific ideas in that respect, but they 
point to the lag in this culture of change and reform which 
seems to be, more or less, accepted in the top ranks filtering 
down into the system itself. I think that is a critical 
impediment right now.
    Another area is to enhance the U.N.'s ability to evaluate 
what it is doing--and it is doing a lot in a lot of different 
areas--and identify ways in which the effectiveness of those 
efforts might be increased, or where they are not effective, 
where they might be adjusted, modified, or even terminated.
    In addition, the Helms-Biden legislation has provided some 
benchmarks as we work toward reform, in budgeting, in personnel 
management, and most prominently, in the scales of assessment 
for both the regular budget and peacekeeping. We have been 
putting a lot of energy into this, as you might expect, because 
this is the critical year to achieve change in the scales of 
assessment.
    This has been a big focus of Secretary Albright's and 
Ambassador Holbrooke's work in recent months. No meeting goes 
by where the Secretary of State does not raise this with key 
foreign leaders and counterparts with whom she meets. 
Similarly, Dick Holbrooke has been very energetic in working 
not only in New York but in his travels. Our Ambassador for 
management reform, Don Hays, I think has met several times with 
probably each delegation. I have in this year alone been to 
Geneva, Rome to work with the largest contributors to the U.N. 
system, and then in Brussels to work with the EU, and I just 
returned Monday from going to Saudi Arabia, Egypt, and Kuwait, 
again to try and influence key regional audiences.
    Important markers in that coming up. We hope the Fifth 
Committee, when it resumes its deliberations this month, sir, 
will agree to take a comprehensive look at scales because so 
far the parliamentary mechanism in the U.N. system has only 
admitted for a regular budget discussion, not of the 
peacekeeping scale. We would like to get those merged so we can 
work on both of them at the same time.
    Obviously, the true test of this is what is decided at the 
end of the day on scales of assessment, but I would say that so 
far we are having some good success in getting attention to the 
ideas we are pursuing for fair, equitable, and comprehensive 
reform on both the scales.
    Before I close, let me just review briefly the situation we 
are facing in paying for our share of peacekeeping operations.
    At the moment we have congressional holds, not from this 
committee, sir, but from another committee, on paying our bills 
for the four major operations I mentioned. This is for the 
reprogramming of already appropriated fiscal year 2000 funds. 
In addition, without the funds that we have asked for in the 
fiscal year 2000 supplemental for Kosovo and East Timor, we 
expect to fall well short of what we need to pay peacekeeping 
assessments this fiscal year as a result.
    Finally, we have made request for fiscal year 2001 moneys 
for our share of U.N. operations, and there again, because we 
expect a growth in the costs, the request is higher than for 
this fiscal year, and we need sufficient funds to be able to 
meet those expected needs also. Obviously, to the degree we are 
not meeting our assessments for these operations, we are 
incurring costs, not only costs to our diplomacy and to our 
credibility, but also we are accumulating arrears.
    When we deal with situations like the one you mentioned 
today, Sierra Leone--and there are others which one can expect, 
as we look at the operations around the world and the 
operations possibly still to come--that these will be fraught 
with challenge, just as they are with opportunity, to establish 
peace.
    The question you asked, Senator, of the panel with whom you 
met in April was an excellent one. You asked them what are the 
alternatives because, as we remind ourselves that it is our job 
to try and get the U.N. to do a better job on peacekeeping, we 
also have to ask ourselves what are our real choices in these 
situations.
    I am aware that this is an area where in some of these 
cases, Sierra Leone in particular, the option of U.N. 
peacekeeping was seen to be the most viable one under the 
circumstances. If you look at the binary choice of doing 
nothing or doing it all ourselves unilaterally, it is clear 
that, in between, U.N. peacekeeping is one of the viable 
options for dealing with these situations.
    Let me point out too that, just as there are challenges in 
these cases, many of the other operations are running well.
    Thank you, sir.
    [The prepared statement of Mr. Welch follows:]

               Prepared Statement of Hon. C. David Welch

    Mr. Chairman, I appreciate the opportunity to appear in front of 
you today to discuss the United Nations. As Ambassador Richard 
Holbrooke pointed out during your visit to New York in January, your 
continued interest in the activities and vitality of the United Nations 
is very important to us.
    Today I will discuss the general status of UN reform efforts, but I 
would like to concentrate my remarks on peacekeeping. Mr. Chairman, I 
am aware that your subcommittee had a hearing last month in which you 
discussed UN peacekeeping at length. I look forward to continuing this 
discussion with you today, for as ongoing events in Sierra Leone and 
elsewhere demonstrate, now is a crucial time for peacekeeping.
    We are approaching the one-year anniversary of the Security Council 
resolutions authorizing the peacekeeping missions in East Timor and 
Kosovo. These two missions, along with expanded UN missions in Sierra 
Leone and the Congo, have brought about new challenges, as well as 
significant increases in peacekeeping costs and UN personnel on the 
ground.
    Mr. Chairman, these peacekeeping commitments justify your interest 
in and concern over the prospects for UN peacekeeping--both in general 
and with regard to specific operations.
    But let me be clear--peacekeeping, when done right, can be one of 
the most useful foreign policy tools we have. I will elaborate on this 
in three parts:
    First, I will describe what peacekeeping can accomplish under the 
right circumstances. Second, I will describe how peacekeeping serves 
our national interest. Third, I will discuss what we are doing to make 
peacekeeping work better--so it can better serve these national 
interests. I will conclude by talking about UN reform in general, and 
how our financial situation could undermine all our efforts for reform.
    To discuss what peacekeeping can accomplish, we first have to 
define what we expect from UN operations--in other words, what is 
success? When peacekeepers are deployed, we expect that the 
international community is taking a step towards repairing a breach of 
international peace and security, averting an urgent humanitarian 
disaster, stopping gross and systematic violations of human rights, 
supporting public security, or implementing a settlement leading to 
democratic government and the rule of law.
    In taking on these responsibilities, peacekeepers provide breathing 
room and help peace agreements take root. They allow refugees to go 
home, disarm combatants, enable citizens to live without fear of being 
caught in the crossfire, help bring war criminals to justice, and 
assist national leaders build democratic institutions.
    Let us examine a few cases:

  <bullet> In Mozambique, the UN mission served U.S. aims by: 
        separating, demobilizing, and reintegrating combatants; 
        monitoring the cease-fire; and observing and verifying all 
        stages of the election process. Mozambique remains democratic 
        and at peace.

  <bullet> In Namibia, the UN served U.S. aims in that the civilians, 
        police, and military officers of the UN Transition Assistance 
        Group successfully facilitated democratic change.

  <bullet> In Macedonia, the UN mission served U.S. aims by containing 
        the spread of Serb terror, which allowed the Macedonians to 
        establish democratic institutions and join the, European 
        community.

    Neither the U.S. nor the UN expects a seamless transition to 
stability and democracy in areas where peacekeepers are deployed, just 
as we do not expect to achieve peace in the Middle East overnight.
    We know there will be difficulties, especially if you look at the 
history of violence in some of these situations, such as in Angola or 
the Balkans. There will be temporary setbacks like sporadic violations 
of cease-fires or civil disturbances. There will also be missteps by 
hard-working people working under demanding, life-threatening 
conditions. Often, even if a peace agreement is signed and agreed upon 
by all parties, the process will continue in fits and starts. We also 
know that successful implementation of a negotiated settlement will not 
proceed in the, absence of peacekeepers.
    And at times in the past, peacekeeping didn't just proceed in fits 
and starts--it failed altogether. Just look at Bosnia, Somalia, and 
Rwanda. President Clinton and Secretary Albright have acknowledged the 
failure of these missions. The UN has also acknowledged these failures. 
UN Secretary-General Kofi Annan himself stated that the UN's Department 
of Peacekeeping Operations (DPKO), under his supervision, failed the 
people of Bosnia and Rwanda.
    But the point is that in current situations like Kosovo, East 
Timor, and Congo, the living conditions of thousands of people would be 
much worse without a UN presence. They would also have no hope for a 
better life. That is the case, we believe, in each of the areas where 
operations are currently deployed around the globe.
    And if success means that--as a direct result of the UN's 
presence--people are not getting slaughtered, that terrorists or 
tyrants are not finding a haven in failed states, that violence is not 
destabilizing entire regions--then the UN is indeed succeeding.
    So, I submit to you first that peacekeeping can work. Next I will 
describe how peacekeeping is in our national interests.
    Let me remind you that we are prepared to act unilaterally to 
protect our vital national interests. We have demonstrated our 
willingness to do so--Saddam Hussein and Usama bin Ladin know this.
    At other times, our vital national interests are not threatened, 
but we still have an important stake in resolving conflicts. When 
conflicts break out, they pose a threat to America's values, such as 
democracy; America's economic goals, such as access to open markets; 
and America's political objectives, such as containing violence and 
organized crime, and supporting human rights and the rule of law.
    It is in situations such as these where, as a measure of response, 
we can use UN peacekeeping as way to further U.S. interests, while 
sharing the costs and risks. In the past, UN peacekeepers have served 
U.S. interests in Macedonia, Lebanon, Haiti, Eastern Slavonia and 
elsewhere, and they continue to do so around the globe today.
    The four most prominent peacekeeping missions right now provide 
good examples.

  <bullet> Our interest in Kosovo stems from our long-standing desire 
        for a stable, democratic, and multi-ethnic Europe, no longer 
        threatened by Soviet power, and our need to help the emerging, 
        democratic nations under a stable NATO-Russian cooperative 
        security arrangement.

  <bullet> In East Timor, the U.S. has important security, political, 
        and commercial interests in Indonesia. This is an opportunity 
        to resolve a problem that has been a source of regional tension 
        and humanitarian concern for 25 years. We also want to support 
        our close ally, Australia.

  <bullet> In Sierra Leone, we have had a clear humanitarian interest 
        in helping to consolidate the peace and in supporting the 
        British in a key country for them. The war in Sierra Leone has 
        not only generated refugee flows and economic displacement, but 
        it has also led to the direct military involvement of several 
        neighboring states.

  <bullet> And in the Democratic Republic of the Congo, the U.S. has an 
        interest in supporting UN efforts to stabilize the most 
        widespread war in modern African history. This war has not only 
        destabilized one of Africa's largest countries, but also 
        threatens to spill across its nine international borders and 
        destabilize much of the continent.

    To put it another way: when the U.S. supports a UN peacekeeping 
operation, we're not in it just for the sake of peace, we're in it 
because of what peace means for U.S. interests.
    That brings me to my third point. Even though peacekeeping can 
succeed, and even though it can serve U.S. interests, it can do neither 
unless we reform the way the United Nations runs peacekeeping 
operations, while at the same time bolstering the support of member 
states for peacekeeping.
    Our emphasis on peacekeeping reform at the UN is nothing new. 
Presidential Decision Directive 25, issued in 1994, reflected the 
commitment of the Clinton Administration to strengthening the way the 
UN considers and manages peacekeeping missions.
    With our position and veto on the Security Council, the U.S. wields 
considerable influence over the decision-making process on 
peacekeeping. We have used that influence in recent years, with 
tangible results. For example, the UN's Department of Peacekeeping 
Operations has strengthened its capacity to manage missions more 
effectively by:

  <bullet> Giving the Secretariat an effective, state-of-the-art 
        situation center for running peacekeeping missions.

  <bullet> Simplifying operations and reducing costs through a 
        contingent-owned equipment system, which helps missions get the 
        materials they need at the time they need them.

  <bullet> Improving mission planning by conducting thorough ``lessons 
        learned'' reviews of past peacekeeping operations.

  <bullet> Working to improve recruitment, training, deployment and 
        logistical support of civilian police operations.

  <bullet> Improving rapid deployment capabilities by establishing the 
        UN Logistics Base and standby arrangements system.

    DPKO should reflect the demands of UN peacekeeping missions in the 
field. Unlike the exclusively military missions of the past, present 
missions are increasingly multidisciplinary, involving civilian police 
and civilian administration functions.
    These steps are a solid beginning but are not sufficient. The 
recent increase in UN peacekeeping costs and personnel only intensifies 
the need for a sustained commitment to reform. Let me sketch for you 
some of the peacekeeping reform issues that are U.S. priorities.
    First, we are concerned that the Department of Peacekeeping 
Operations is stretched too thin. Secretary General Annan agrees and 
told the Security Council so at the end of February. We are working to 
help correct this shortfall. UN peacekeeping operations cannot succeed 
without sufficient personnel, both in New York and on the ground.
    There is no quick fix for this. We are actively supporting the 
Secretary General's review of permanent DPKO staff and ways that they 
could be supplemented to provide surge capacity and specific expertise. 
This is especially important in view of the internal nature of many 
conflicts and resultant tremendous increase in demand for civilian 
police (CIVPOL).
    To demonstrate the priority we place on this, in February the 
President signed Presidential Decision Directive 71 (PDD-71). PDD-71 
directs the Administration to enhance U.S. CIVPOL capacities and help 
enhance the CIVPOL capacities of the UN and other member states. We 
look forward to working with the Congress as we move forward to 
implement this new directive.
    Another key issue is the use of experts-in-kind at the UN 
(including civilians, not just military officers). DPKO has paid a real 
penalty for the decision to curtail the experts-in-kind. Nowhere near 
as many UN slots have been made available to DPKO as were filled by 
gratis officials, while other Departments continue to enjoy overly 
generous staffing.
    We are working to get DPKO to utilize experts-in-kind where it 
currently has authority to do so. And we are seeking to reintroduce 
this on a basis acceptable to UN members, including the Non-Aligned 
Movement.
    Fortunately, Secretary General Annan is an ally in our reform 
efforts. He recently appointed a blue-ribbon panel to look closely at 
how the UN can improve its performance in peace operations. We are 
pleased that two Americans are members of the panel: former AID 
Administrator Brian Atwood and William Durch of the Stimson Center.
    The panel's focus includes the nuts and bolts of UN peacekeeping--
getting the structure right, proper planning, improved organization. We 
welcome the panel. It's an important initiative, and we look forward to 
its recommendations. We will make it aware of our views and will keep 
you apprised of its work.
    But as you know as well as anyone, Mr. Chairman, our peacekeeping 
reform efforts are just part of our broader efforts to reform the UN, 
efforts which have brought tangible results. While we are continuing 
this pursuit, we have quite a bit to show for our efforts even today. 
Many organizational and managerial improvements have been achieved, 
while others are in process, as GAO has pointed out.
    One of the most significant reforms was carried out in 1995, when 
the UN established an Inspector General function for the first time. 
The Office of Internal Oversight Services--OIOS--has made remarkable 
progress in developing a management culture aimed at accountability, 
efficiency, and effectiveness. Its auditors have saved the UN--and 
member states--millions of dollars by identifying duplication and 
mismanagement throughout the organization, while its investigators have 
greatly enhanced the deterrent value of oversight by successfully 
pursuing cases of fraud and abuse.
    Other improvements in recent years include:

  <bullet> the consolidation and restructuring of the UN's economic and 
        social affairs departments;

  <bullet> the establishment of a Deputy Secretary General along with a 
        cabinet-style management structure to improve coordination;

  <bullet> the implementation of a code of conduct to foster a culture 
        of accountability; and

  <bullet> the implementation of a performance appraisal system to link 
        employees' work to the achievement of program objectives.

    While much has been done, more needs to be accomplished. For 
example, we will work hard to enhance the UN's capacity for evaluating 
its myriad activities and identifying ways to increase their 
effectiveness. We will also promote ways to make the UN's recruitment 
process more responsive to the critical and often urgent needs of 
missions and projects mandated by members.
    In addition, the Helms-Biden legislation has provided concrete 
benchmarks as we work to achieve UN reform in budgeting, in personnel 
and management, and most prominently, in the scales of assessment for 
both the UN regular budget and the peacekeeping budget. I assure you 
that we are making every possible effort in New York and in capitals 
around the world to achieve a more equitable distribution of 
peacekeeping and regular budget costs.
    And, while not the focus of this hearing, reform of the Security 
Council is an important aspect of our overall UN reform effort. 
Hopefully, the flexibility we have expressed regarding possible Council 
composition will create momentum to move the reform process forward, 
but the effectiveness of the Council will remain our primary objective.
                               conclusion
    Before I close, Mr. Chairman, allow me to review briefly the 
situation we are facing in paying for our share of peacekeeping 
operations.
    At the moment, we face Congressional holds on paying our bills for 
four major operations: in Kosovo, East Timor, Congo, and Sierra Leone. 
These holds have been placed by the Appropriations Committees. This 
committee, however, has not put holds on any of these missions and has 
supported our using FY 2000 funding for these missions.
    In addition, without funds included in the FY 2000 supplemental 
budget request for Kosovo and East Timor, we will fall well short of 
what we need to pay peacekeeping assessments this year. We seek your 
help in ensuring that we can pay our share for UN operations. It is our 
sincere hope that these holds will be lifted and that sufficient funds 
will be made available for the United States to pay its peacekeeping 
bills in full.
    As Ambassador Holbrooke noted last month at a hearing before the 
House Commerce, Justice, and State Subcommittee, not paying our 
assessments to these peacekeeping operations would be disastrous. We do 
not want to accumulate even more arrears, just as we are working so 
hard to marshal support for regular budget and peacekeeping scale 
reform as well as other important UN reform measures. Our inability to 
pay current assessment bills undermines our credibility and could de-
rail our reform efforts to date.
    Mr. Chairman, in the end, we believe that despite the UN's 
problems, our engagement in the UN and support of its initiatives can 
be an effective and low-risk way to pursue U.S. interests.
    And when evaluating the UN's activities and effectiveness in 
dealing with peace, security, human rights, or other issues, I suggest 
that you ask: What's the alternative? I'm aware that during the 
peacekeeping hearing last month, you asked some of the panelists who, 
if not the UN; we should expect will help bring peace to East Timor, 
Sierra Leone, Congo, and elsewhere. I am glad you asked this question.
    Because when one considers the alternatives to UN peacekeeping in 
these situations--either inaction or unilateral engagement--it is clear 
that UN peacekeeping is one of the best tools we have for advancing 
U.S. interests.
    Were the situations in Bosnia, Rwanda, and Somalia complex and 
difficult? Of course. Are current peacekeeping operations sometimes 
dangerous and costly? Yes. But as the President said in his speech to 
the General Assembly last September, ``difficulties, dangers and costs 
are not an argument for doing nothing.''
    And, if I could add to what the President said, difficulties, 
dangers, and costs are often very good reasons to share the burden and 
risk with other nations.
    The same can be said for multilateral engagement in general: that 
it is a good way--not a perfect way or the only way--to pursue U.S. 
interests. Mr. Chairman, I look forward to working with you to ensure 
that the UN remains an effective and useful forum for advancing U.S. 
foreign policy.
    Thank you again for the opportunity to appear before you today.

    Senator Grams. Thank you very much, Mr. Welch.
    We have been joined by Senator Boxer, and if you would like 
to have an opening statement before we go into questioning.
    Senator Boxer. Thank you very much, Mr. Chairman. I have a 
brief opening statement.
    I want to welcome Secretary Welch here today. I know you 
have a hectic schedule. We are glad to see you.
    I also want to welcome the representatives from the General 
Accounting Office who will testify on the second panel.
    Let me say clearly that I support the United Nations in the 
work that it does throughout the world. I do not think it is 
perfect. I do not think we are perfect. I do not think there is 
any organization that is perfect. We all make mistakes. But I 
am very proud that the U.N. charter was signed 55 years ago in 
my home State of California, and I am proud of the role that 
the U.N. has played in promoting worldwide peace and security.
    In today's world of ethnic conflict, infectious disease, 
and non-state terrorism, it is now more important than ever for 
the U.N. to be strong, effective, and efficient. And that is 
why I am very pleased we were able to pass the Helms-Biden 
legislation last year which does pave the way for the U.S. to 
pay its arrears owed to the United Nations. I trust, sir, that 
we will abide by that law.
    I am also very pleased that Chairman Helms invited the U.N. 
Security Council to Washington to meet with the Foreign 
Relations Committee. It was very interesting and exciting, I 
thought, to have them here. I do feel that those kinds of 
meetings are an important way to improve the relationship 
between our Nation and the U.N.
    I just want to make a couple of quick comments on 
peacekeeping. In general, I believe U.N. peacekeeping 
operations can certainly be successful if they are implemented 
and conducted correctly. Peacekeeping can stop deadly and 
costly conflicts from escalating. They can prevent humanitarian 
disasters and provide a stable environment following an 
agreement between the warring parties.
    But I do agree in part with a point that Senator Grams 
made--and I read his statement--and that is, that peacekeepers 
should really go in when there has been a political settlement, 
where there is calm, otherwise it seems to me bad things can 
happen and it is not truly peacekeeping. It becomes an 
extension of a conflict with more parties involved.
    So, it is not that again we can always be perfect. It is 
not that we can predict that every time we do this, it is going 
to be perfect. But I think we need to have the criteria pretty 
carefully spelled out so that peacekeepers are going in to keep 
the peace that basically has been agreed to, and that should be 
pretty well thought out because otherwise we are putting people 
at risk.
    Beyond that, I am concerned that the United Nations 
Department of Peacekeeping Operations may not have the ability 
to carry out the mandates given to them by the Security 
Council. DPKO is simply undermanned at this time and the U.N. 
must find a way to give these peacekeepers the tools that are 
necessary to carry out their missions.
    I do agree with you, Secretary Welch, when you say if we 
were to turn our back on peacekeeping, it would bring us down 
to two bad choices. In the face of deaths and rapes and 
refugees, the two choices would be essentially, as you said, 
acting unilaterally or doing nothing. To me that is not a 
choice.
    So, this is a difficult time and we have a lot to do. I am 
very pleased the chairman has called this hearing. I certainly 
look forward to working with you and Secretary Holbrooke and my 
chairman and the rest of the subcommittee to make sure that we 
can move forward because I think, regardless of where we come 
out on all of this, we all want a peaceful world. That is what 
we are committed to. That is what we owe our children and our 
grandchildren and the children and grandchildren of the world. 
So, we have to work harder and we have to tackle these issues 
even when they are in fact contentious. We have contentious 
issues here, issues of budget, issues of reform of an 
institution, issues of peacekeeping. These are all key.
    So, thank you very much, Mr. Secretary, and thank you, Mr. 
Chairman.
    Senator Grams. Thank you, Senator.
    Mr. Welch, I would like to start off with some questions 
dealing specifically, first of all, with Kosovo. It has come to 
my attention that the status of U.S. soldiers participating in 
the NATO-led peacekeeping operation in Kosovo is still 
unresolved. Specifically, privileges and immunities for 
individuals in KFOR are not guaranteed. That leaves our troops 
open to potential legal risk. I realize that setting up a 
traditional status of force agreement is not possible in this 
instance, but I think it is outrageous that after 11 months 
after KFOR first went into Kosovo, this situation has been 
allowed to stand unresolved.
    So, I would like to ask you, Mr. Welch, has the 
administration raised this issue with the head of the U.N. 
mission, Bernard Kouchner?
    Mr. Welch. Senator, I am not prepared to answer that 
question right now. I simply do not know. If I could provide an 
answer for the record. I will check. My own recollection of 
this, when I last looked at it, was a difference of view about 
who we would conclude this SOFA with and some reluctance on our 
part to--we were inhibited from doing anything with the 
government in Belgrade, in particular. But let me check into 
this for you, sir, if I may.
    Senator Grams. I have a series of questions dealing with 
that. I would like to submit those all to you in writing such 
as, have there been any attempts to resolve the status of our 
troops participating in KFOR? Procedurally is it possible for 
Mr. Kouchner to issue a regulation clarifying the status of 
KFOR? Are our diplomats assigned to the U.N. mission in Kosovo 
similarly left unprotected, and why has the administration 
allowed this state of affairs to persist, as I mentioned, for 
nearly a year? So, I would like to submit these questions and 
maybe others with them as well to you and if you could get back 
something in writing for us.
    [The following was received in response to Senator Grams' 
questions:]

         Response of Hon. C. David Welch to Questions Posed by
                           Senator Rod Grams

    Questions. Regarding the status of the privileges and immunities of 
U.S. troops participating in KFOR and U.S. civilian personnel assigned 
to the U.N. Interim Administration Mission in Kosovo: Has the 
administration raised this issue with the head of the U.N. mission, 
Bernard Kouchner? Have there been any attempts to resolve the status of 
our troops participating in KFOR? Procedurally, is it possible for Mr. 
Kouchner to issue a regulation clarifying the status of KFOR? Are our 
diplomats assigned to the U.N. mission in Kosovo similarly left 
unprotected? Why has the administration allowed this state of affairs 
to persist for nearly a year?

    Answer. On August 18, UNMIK formalized the legal status of UNMIK 
and KFOR personnel and contractors with the promulgation of UNMIK 
Regulation No. 47 ``On the Status and Privileges and Immunities of KFOR 
and UNMIK and Their Personnel in Kosovo.''
    UNSCR 1244, in establishing KFOR with authority to use all 
necessary means to fulfill its responsibilities under the authority of 
Chapter VII of the United Nations Charter, confers such privileges and 
immunities as are necessary for its mission. This includes immunity 
from local criminal, civil and administrative jurisdiction, and from 
any form of arrest or detention other than by persons acting for or on 
behalf of the sending state. KFOR personnel have enjoyed these 
privileges and immunities since their arrival in Kosovo. Similarly, 
UNMIK personnel, under the authority of UNSCR 1244, have from the 
inception of their mission enjoyed ``U.N. experts on mission'' 
privileges and immunities.
    This legal status has been clarified by both UNMIK and KFOR. On 
August 17, UNMIK and KFOR issued a Joint Declaration by the Special 
Representative for the Secretary General of the United Nations and 
Commander KFOR regarding the Status of KFOR and UNMIK and the Personnel 
in Kosovo. The following day, UNMIK issued Regulation No. 47 ``On the 
Status, Privileges and Immunities of KFOR and UNMIK and Their Personnel 
in Kosovo.'' The regulation, which is deemed to have entered into force 
on June 10, 1999, applies retroactively back to the date of issuance of 
UNSCR 1244, publicly affirms the privileges and immunities of the 
organizations, their personnel, and their contractors, and will be 
applied by courts in Kosovo.

    Senator Grams. Sierra Leone. Recent events in Sierra Leone 
have forced the State Department to issue a near-term policy 
goal of supporting the United Nations to maintain the 
credibility of the peacekeeping mission in Sierra Leone. In 
recent months and days, the peacekeeping mission has 
relinquished between 300 and 700 peacekeepers, 20 armored 
personnel carriers, vast amounts of small arms and ammunition. 
The peacekeepers cannot maintain security for themselves, let 
alone anyone else. There is no freedom of movement for any 
party other than the RUF rebels throughout Sierra Leone.
    The disarmament program has processed over 23,000 people, 
yet has not even collected half that number of weapons from the 
people. Weapons continue to come across the border from third 
party states.
    Mr. Welch, the United Nations has stated that it will 
respond to the current crisis by expediting the deployment of 
authorized peacekeepers. Do you honestly believe that this 
mission will be better served by providing more troops to the 
conflict? And are troops-contributing countries hesitant to 
provide the additional peacekeepers?
    So, again, I will go back. Do you honestly believe the 
mission will be better served if more troops are committed to 
the conflict, and what about those countries providing these 
troops? Are they at all hesitant because of the situation that 
continues to prevail in Sierra Leone?
    Mr. Welch. These are good and tough questions, Senator. I 
think what has happened in Sierra Leone over recent days is a 
grievous setback both to the peace process that we thought had 
been agreed there and to what will happen to U.N. peacekeeping 
in Sierra Leone.
    At the moment, this is a highly unsettled military 
situation. Some of the basic facts are still unknown to the 
U.N. and even to us. For example, how many U.N. troops are 
affected by either being held hostage, by being surrounded but 
not under the control of, yet, rebel forces, or by being in 
communicado or out of communication? Some of the basic data is 
still not in yet.
    Will additional troops help? I think the U.N.'s key 
objective right now and the one that they have expressed to the 
Security Council is to try and stabilize the situation, 
particularly in Freetown. This seems to be occurring, but it is 
a little early to tell yet because the intentions of those who 
have violated the peace arrangement are also not really well 
known or clear. In particular, it is hard to assess their 
military ambitions at this point.
    Is there a reluctance on the part of other countries to 
pitch in? Well, not surprisingly, they are equally as concerned 
about the future of this operation and particularly about the 
future of the peace arrangement. After all, a viable peace 
arrangement is a fundamental for any of these operations, and I 
think that has been badly shaken in this case. We do not know 
whether it can be restored.
    And yes, we have encountered some skepticism from potential 
contributors. We can go into that in some detail if you like. 
It is necessary in a situation like this to have strong and 
capable contributors too. Countries who have those kinds of 
military forces are understandably very careful about how they 
commit them.
    I would add that the possible effects of this go well 
beyond Sierra Leone because, if you look at how the Congo 
situation could evolve, with phased operations there to support 
the peace arrangements as they are arrived at and the cease-
fire as it is implemented, contributing nations there too will 
ask are these sufficiently viable that we can go in.
    For now, the U.N. is concentrating on, as I said, trying to 
stabilize the military situation in Freetown and get a hold on 
the situation of its people there. At the same time, regional 
leaders are trying to restore a diplomatic effort to contribute 
to not only improving the military situation, but also to see 
whether a viable peace process can be restored. The jury is 
still out on the success of either one of those.
    Senator Grams. Would this be a situation where the 
recommendation might be to pull out the peacekeepers? Maybe you 
could give me some details, or at least one or two examples, of 
some of the hesitation by some of the other countries or 
concerns that they have.
    Mr. Welch. No. We are not looking at a decision to pull 
them out.
    Senator Grams. Well, then you are asking them to fight a 
war. Are we at that point?
    Mr. Welch. We are not at that point either.
    There are two ways to look at the opportunities for 
bolstering forces in Sierra Leone. One is on those who are 
nearby and have previously played a role, Nigeria in 
particular, or second, those who had committed earlier on to 
form part of the authorized 11,000 for UNAMSIL who had not yet 
put all of their troops in place. There we are looking at 
Jordan, Bangladesh, and India. There are Jordanian troops 
already on the ground, for example, and the Jordanian 
Government is considering an immediate reinforcement of its 
units there, plus speeding up the deployment of the battalion 
it had committed to in advance.
    Now, we obviously are supportive of those quality troops 
coming into this situation because we think that they are 
capable. Their hesitations range from the concern I mentioned 
about the situation that they are entering, but people like the 
Jordanians also want to help out the people they already have 
on the ground.
    There is a hesitation that is associated with the logistics 
of this effort. Many of these countries, while they might have 
the forces available at home, do not have the capability to 
move them easily into the theater, and they want to know how 
they are going to be able to accomplish that particularly 
quickly.
    Senator Grams. What actions has the United States decided 
to take in support of the mission? And what options are still 
on the table for us?
    Mr. Welch. We have not made any decisions yet. We will not 
participate with our own military forces in UNAMSIL.
    Senator Grams. Personnel or what about support activity?
    Mr. Welch. Well, support is another question. If the U.N. 
requests it, we will entertain supporting, for example, on lift 
of troops into the area or on other logistical support. To be 
honest with you, this is a fast-breaking situation and some of 
those requests could well be coming in as we are speaking here 
now. I do not personally know of any. We are disposed, however, 
to help if we can.
    In the case of some of the other contributors, the 
potential contributors, including the ones I just mentioned, 
Senator, I believe other nations are also offering the same 
kind of support that we are. Some, like the British, have gone 
ahead and put people on the ground, not as part of UNAMSIL, but 
to protect their own citizens and play a presence role at the 
airport, and that is underway too.
    Senator Grams. What other options are there on the table 
that we have?
    Mr. Welch. Well, the one I mentioned earlier would be to--
--
    Senator Grams. I am talking again about U.S. participation.
    Mr. Welch. Oh, in terms of U.S. participation, there is 
none other that I am aware of. The only support we would 
provide is at request to help people get in or with logistical 
arrangements. Perhaps medical teams, but again I do not know if 
those have been requested yet.
    Senator Grams. You mentioned a couple of countries. Are 
they the countries that would contribute to any so-called rapid 
reaction force? And if they did, what would be their mandate? 
Would it include, say, Jordanian forces or more British forces?
    Mr. Welch. That is a possibility. However, the Department 
of Peacekeeping Operations has not come to the Council and 
suggested that option yet. What they are looking at instead is 
reinforcing the units that are already there and trying to 
expedite the ones that had been committed but had not yet 
arrived.
    Excuse me. I should just add one other thing, if I may. 
They have not suggested any change in the mandate of the forces 
that are presently there.
    Senator Grams. I just have a couple of followup questions 
and then I will recognize the Senator from California.
    Does the failure of this mission cause you to reconsider 
what the United Nations can effectively accomplish in the realm 
of peacekeeping? Again, I think this goes back to Chairman 
Warner and what he mentioned when the U.N. Security Council 
paid a visit about we should not commit unless we can do the 
job. Do you have any reconsideration of how the U.N. can 
effectively accomplish the realm of peacekeeping?
    Mr. Welch. I tend to agree with that judgment, but I think 
it is, at this point, premature to announce this as a failure. 
We do not know yet what the consequences will be. There will be 
some lessons learned even if this succeeds from what has 
happened now because, as I said, this is a grievous setback to 
what we thought had been a viable peace arrangement in Sierra 
Leone.
    I would also like to segregate the lessons learned with 
respect to the peacekeeping operation from that which we have 
learned again about the peace arrangement that these are 
designed to support. Senator Boxer said that the peacekeepers 
really can only do as good a job as the arrangements they are 
designed to support. I think some fundamental lessons will be 
had there too with respect to the commitment, integrity, and 
honesty of the parties in this case.
    Senator Grams. That leads to my final question dealing with 
this, but does this have any reflection on what is going on in 
the Congo right now and the impact on whether or not the United 
Nations should support the deployment of peacekeepers to the 
Congo? Knowing what we know here, not a true peace in place, I 
think the situation we would place the peacekeepers in and 
maybe in harm's way of many of the citizens as well--but does 
that have a reflection on plans for the Congo?
    Mr. Welch. Yes, inevitably it will. But this is the reason 
why we have been focusing a lot of our diplomatic attention on 
the situation in the Congo, including with Ambassador 
Holbrooke's most recent travels to the region, because it is 
precisely because of that concern that we have to see that the 
arrangements that are being put into place are real and 
effective and that the parties are determined to live up to 
them.
    I think it is understandable that even before the Sierra 
Leone debacle, there has been some skepticism about that. We 
have said all along that it is a highly dangerous situation, 
that we share many of these concerns, but the only way to 
tackle that I think is to do what Dick Holbrooke is doing, is 
go out there and measure the commitment of the parties and try 
and find ways to make it stick.
    Senator Grams. So, in other words, peacekeepers will not be 
committed to the Congo until they are more satisfied that there 
is a peace there that is going to stick.
    Mr. Welch. There is a phased program for the deployment of 
peacekeepers in the Congo, and those phases are interlocked to 
the parties living up to specific obligations that they have 
undertaken under the Lusaka agreements. And we are trying to 
tighten those obligations as much as possible. For example, 
when Ambassador Holbrooke and the U.N. Security Council team 
were discussing this with the leadership there, the conclusion 
of the status of forces arrangement for MONUC was critical 
because, without that, you cannot deploy outward and have the 
access into these areas that you need.
    At the same time, the Congo agreement is a cease-fire 
agreement, and the cease-fire is also under stress, to put it 
mildly, in some places. That needs to be enforced before you 
can have the deployments. These things will not proceed, 
though, unless those arrangements are in place.
    Senator Grams. Thank you, Mr. Welch.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    I have a few followups on Sierra Leone and then a couple of 
questions about these holds that you referred to so that I can 
understand them better.
    Can you give us any latest news on the location and 
condition of the U.N. peacekeepers that have been taken hostage 
in the last few days?
    Mr. Welch. I wish I could be more clear on this, Senator 
Boxer. I am aware of four Kenyan fatalities. I am aware of a 
number of wounded. There were reports of units who had either 
been captured or were missing, but whom have now either been 
released or turned up. Those are coming in. In the former 
category, those who have been released, for example, there was 
a helicopter that was seized and it and its crew were released.
    The situation is vague both in terms of the numbers who 
might be held hostage and another number, I have to say in all 
honesty as yet indeterminate, of others who are either 
surrounded but still in control of themselves--that is, not 
held prisoner--and others who are in communicado, and the 
reason for them being in communicado is, as I understand it, 
totally unclear to the U.N. military leadership on the ground.
    Senator Boxer. It sounds like a bad situation, for sure.
    The Lome agreements called for a power sharing agreement 
between the rebels and the government. Did both sides actually 
sign this agreement?
    Mr. Welch. Yes.
    Senator Boxer. So, both sides agreed in writing to a power 
sharing agreement.
    Mr. Welch. They signed the agreement. The cause of this 
recent debacle could not be more clear. One side has violated 
that agreement.
    Senator Boxer. Right.
    This is a very difficult question. Can you talk about the 
ability of the U.N. peacekeepers to defend themselves? Are they 
equipped to do the job that they were tasked with? Are they 
able to communicate with each other? They come from different 
countries. Can you give us an assessment of that?
    Mr. Welch. I can try a thumbnail assessment. I think the 
U.N. spokesman has addressed this over the last couple of days 
too.
    There have been some real inadequacies in both their 
comportment and their equipment. This is not a Chapter 7 
mission; that is, they are not there to enforce this peace. 
They were there to keep it. But they were entitled to defend 
themselves if set upon. Some may have done so and lost. 
Obviously, there have been some people killed and wounded, and 
that is a very tragic development.
    I have to say, frankly, that earlier this spring when there 
was an incident involving seizure of some weapons and vehicles 
from one of the units, it was our impression that they could 
have done better to defend themselves. They are entitled and 
mandated to do that. Commanders on the scene may elect not to 
for their own reasons, but we felt that that was their job.
    There are some inadequacies in their equipment too and in 
their ability to communicate with each other. There is sort of 
a life cycle to these missions, and the early days are often 
the most troublesome. As I understand it, when this happened, 
there were two critical vulnerabilities for UNAMSIL. One is 
they were making the transition, that is, having the job turned 
over to them by the previous forces that were there, the ECOMOG 
forces. The second is they were deploying outward from Freetown 
to some of the areas where they were going to monitor the 
disarmament and demobilization. The latter may have been 
premature because they were not fully staffed up.
    When we go back to look at this case, after it hopefully 
has been stabilized, a question we will need to ask ourselves 
is how did the U.N. leadership handle this between February 
when the mission was authorized and now when it ran into a 
problem when it was only at three-quarters strength. That is a 
very valid question.
    Senator Boxer. Well, I just want to thank you. I feel you 
have been very forthright on this, and I appreciate it so much, 
not defensive and not glossing over. I know I appreciate it 
very much.
    I had a couple of questions, Mr. Chairman, on the 
congressional holds. You mentioned the House and Senate 
Appropriations Committees have holds on the U.N. peacekeeping 
funds. Is it possible for you to tell us what effect are these 
holds having on Ambassador Holbrooke's efforts to push for 
further reforms at the U.N.? I will ask you this series of 
questions. Then I will stop.
    Are the holds on funding for peacekeeping in Kosovo having 
a detrimental effect on our ability to ask the Europeans to 
undertake a greater role in financing reconstruction in Kosovo?
    Are these holds creating brand new arrears at a time when 
we are struggling to pay off our old debt? For example, have we 
received bills from the U.N. we are unable to pay? If you could 
let us know because I do not know how my chairman feels on 
this, but I thought we were moving forward on all this, and it 
is distressing to hear that we are still fighting this battle. 
So, maybe if you could give us a sense of what effect these 
holds are having.
    Mr. Welch. Thank you and thank you for your supportive 
observations on this. I appreciate your remarks about my 
handling the questions on Sierra Leone. I wish that the 
situation there were more clear and I could give you more 
information.
    Senator, unquestionably these holds are having an effect. 
These are the four biggest peacekeeping operations. They 
consume the lion's share of our CIPA budget, and we have bills 
in hand from the United Nations that we should pay for these 
operations.
    Let me just say that this committee has not put holds on 
these. There is money already appropriated. We are trying to do 
this within our means for our present budget, and our present 
budget, as I said earlier, is also insufficient to deal with 
all of the demands. That is why we had a Kosovo and East Timor 
supplemental request of $107 million.
    Yes, this is going to have an impact on our efforts to seek 
reform, especially if it continues. The message here that we 
are trying to convey is America is prepared to step up and pay 
the amounts appropriated by the Helms-Biden process if certain 
changes and benchmarks are agreed to by the U.N. membership. At 
the same time, it does take a stab at our credibility when we 
are running up new bills.
    Do others raise this? Absolutely they do. When I was in 
Brussels, meeting with the European Union and they complained 
to us about all the complaints we had launched against them for 
not having come forward with their pledges on reconstruction 
and other critical parts of the effort in the Balkans, they 
pointed out, well, where is the $50 million you were asked to 
pay by the United Nations, money that they are stepping up and 
paying when they are billed.
    Obviously, I think if we exit this year, instead of having 
achieved the changes we would like on scales of assessment, but 
with an abundance of new arrears, we are going to be in a world 
of hurt in 2001, precisely the opposite situation this 
committee had intended when it passed the legislation, and when 
it agreed to the appropriations, and when it said that it would 
not put these operations on hold.
    Senator Boxer. I happen to agree with you, and I will work 
with you to see what we can do.
    Thank you, Mr. Chairman.
    Mr. Welch. Thank you.
    Senator Grams. Thank you very much, Senator Boxer.
    Just to followup on that, Mr. Welch, when Senator Boxer 
talks about the hold, I think it is my understanding that the 
holds have been placed because they feel they have not received 
adequate information dealing with these operations. Do you feel 
that the State Department or the United Nations, the DPKO, has 
provided adequate details of these peacekeeping operations?
    Mr. Welch. Senator, we come up here very often to talk to 
staff and Members about these things. In some cases, we have 
been at it for 6 months on a specific operation. We have tried 
to answer every question we have been asked. However, it may be 
that we have not answered your questions or those of other 
Members. If so, I should know about that, if either you or your 
staff can inform us, where the inadequacy is in what we are 
doing. We feel like we have answered every question we have 
been asked. We have briefed extensively on each one of these 
operations and on every other operation too, and those 
briefings have not only been from the people who work with me 
on the budget issues themselves on the specific operations, but 
also from the intelligence community staff, from the U.S. 
military, and from the regional bureaus concerned with each of 
these operations, particularly the ones in Africa.
    Yes, these have been labeled informational holds. Well, 
after a period of time, one has to ask, what is the further 
information that might be necessary to resolve this? And in the 
meantime, as I mentioned to Senator Boxer, we now have bills in 
hand, which was different from several months ago when, in some 
cases, we had not yet been billed, so one could be comfortable 
that we could still go through this consultative process, it 
having no implications on arrears.
    Senator Grams. So, again, like I said, my understanding it 
is for lack of information, but you believe and you are 
testifying this morning that you have provided or the State 
Department has or the DPKO has provided adequate information 
that should resolve some of these concerns.
    Mr. Welch. Yes, sir. But I am delighted to come and do more 
if that is necessary, whatever it takes to get them released.
    Senator Grams. Thank you.
    Also, following up on DPKO, I am concerned that the U.N. is 
overextended--and we have talked about this--not capable of 
carrying out all of the commitments that it has made or would 
like to do. The Secretariat keeps tasking the Department of 
Peacekeeping Operations with more missions which it cannot 
manage to do.
    Should the U.N. review the type of peacekeeping missions it 
is undertaking, in addition to the mechanics of whether the 
DPKO has the proper personnel and also the financial resources? 
In other words, should there be a pecking order or a limit of 
what the peacekeeping operations can be expected to 
successfully carry out?
    Mr. Welch. Yes. That is precisely, I would hope, where the 
Secretary General's blue ribbon panel will focus its attention.
    We have focused on that both as a matter of how you 
redesign peacekeeping, but also each time we look at a possible 
new operation. There are some that never make it into existence 
because of questions about are they necessary, can they really 
do the job. Those are decision criteria that we tried to bring 
to them.
    I would argue also that these situations are each, in and 
of themselves, unique. None of us lump them all together, but 
frequently we refer to U.N. peacekeeping as kind of a lump sum, 
and we have to relate the mandates to the specific context of 
each situation too. There is a big difference between East 
Timor, for example, and Congo, needless to say.
    So, yes, you are absolutely right. This is what should be 
an area of focus.
    Now, my understanding is that the blue ribbon panel is 
going to devote attention to precisely the question that you 
asked, and we will be urging it to do so.
    Senator Grams. I think there is a lot of pressure or 
support or talk about sending in peacekeepers to the Congo, but 
if we look back and look at the failure of the U.N. to fully 
man the Sierra Leone operation, should that send, I think, some 
very clear signals to the Security Council to stop approving 
new mandates until it can really effectively carry out the 
missions that it has already started? So, before trying to 
commit to a new area, such as the Congo, should it be very 
satisfied that it has fully manned and supported the 
operations, say, like in Sierra Leone?
    Mr. Welch. I would rather not condition it so dramatically, 
Senator. I think it would depend on what kind of operation was 
contemplated. For example, the Security Council might well 
mandate an operation understanding it will be conducted by 
regional forces rather than U.N. peacekeepers. That I do not 
think would disturb the kind of conditionality you are 
indicating.
    There is going to be a natural reaction, though, on the 
part of troop-contributing nations to situations like the one 
we are seeing now. You spoke earlier, sir, about the caution 
and reserve of potential contributors to the Congo, and I think 
that, in fact, will help to bring more introspection to what is 
intended to be done by these operations because if you cannot 
stand them up because people are so skeptical about 
participating in them, maybe this will encourage a tougher 
minded approach to the quality of the peace that they are 
designed to keep too.
    That is our intent with respect to the Congo. There our 
diplomatic effort has been concentrated very heavily on 
assuring that the arrangements are real and viable before there 
is a commitment on the part of the U.N. to the process.
    Senator Grams. Senator Boxer.
    Senator Boxer. No questions.
    Senator Grams. Mr. Welch, moving ahead, Israel. Israel's 
foreign ministry--and quite rightly in my opinion--rejected a 
European offer that Israel join the United Nations Western 
Europe and Others Group, the WEOG, on a half-time basis. 
According to a report in the Jerusalem Post, according to terms 
of the offer, it would have been years before Israel was 
allowed to sit on any U.N. committee, including the Security 
Council. In addition, the offer would have allowed Israel to 
participate in group activities in the U.S., but would have to 
give up the right to participate in WEOG activities or run for 
U.N. bodies as WEOG members anywhere else overseas. So, it 
would be all right if it was done here in the U.S., but 
elsewhere they would be excluded. This I think would have 
signaled an exception of the unfair, the unequal discriminatory 
status that has been given to Israel, a status unlike any other 
state.
    Is it true the United States recommended that Israel accept 
the offer, and if so, why would we make such a recommendation?
    Mr. Welch. The extraordinary situation that Israel has 
faced for a long time needs to be corrected. We have been 
working very hard on this. I personally have spent a great deal 
of time, particularly with the European Union, on trying to 
overcome some of the obstacles, as has Secretary Albright and 
Ambassador Holbrooke. The story is not finished yet.
    We think that a solution has to be based on Israel enjoying 
rights of membership in a regional organization, just as we 
would or any other member would. There cannot be any solution 
arrived at that is not based on a consensus of those involved, 
including Israel.
    So, rather than speak specifically to anyone's conditions, 
conditions, Mr. Senator, that have changed over time as we work 
the problem, I would just leave it at that this is not finished 
yet, and we will not rest until it is finished on the basis of 
Israel participating just as anyone else would, in a manner 
that is acceptable to Israel.
    Senator Grams. I know you said it would have to be 
acceptable on all parties. That gets back to my question. Did 
the United States recommend to Israel that it accept what I 
would consider a half-baked offer?
    Mr. Welch. Israel makes its own judgments on this. It has 
made its judgments about what the EU suggested, but this is no 
longer just an EU matter. It has now gone beyond that 
particular regional grouping to the WEOG as a whole. In the 
WEOG as a whole, there are other players, including ourselves, 
and we may have different views on how this is done. But 
fundamental to how we come out with a solution here will be 
whether Israel accepts that solution or not, and as yet, it has 
not been arrived at.
    Our intent is very clear. We want them to participate just 
as we do.
    Senator Grams. Again, as we know, Israel rejected, so they 
have not accepted this offer. But I go back again, do you know 
if we recommended that they do? Did we say to Israel, yes, you 
should accept this offer?
    Mr. Welch. No, we have not recommended anything specific to 
them. We have talked to them about various parts of the 
conditionality.
    You are citing a press report, sir, that frankly I do not 
know whether that is accurate or not. I have not talked to any 
representatives of the Israeli Government in the last couple of 
days about this. So, I do not know exactly where they are on 
how they are reacting to the EU's latest conditionality, but as 
I said, that is the EU position. It is not the WEOG position. 
The WEOG position has not been formed yet. We are key players 
in the WEOG, and when we form a position there, it will bear in 
mind what Israel would agree to.
    Senator Grams. That is why I am asking you the questions 
because I do not always believe everything I read in the press 
either. The press account did say that Israel was quoted as 
saying the United States recommended and it rejected the offer 
made.
    Mr. Welch. No. We are still discussing this with them, and 
we expect to continue that. The Foreign Minister of Israel is 
coming to the United States shortly, as is the Prime Minister. 
Our main interlocutor on this has been the foreign ministry. I 
apologize for not having checked with them on where it stands, 
but we will continue that discussion with them about what to 
do.
    Senator Grams. One last question, Mr. Welch. Did the United 
Nations pass a zero nominal growth budget for 2000-2001 
compared to the 1998-1999 budget? And if so, did the budget 
passed for 2000-2001 exceed the $2.533 billion?
    Mr. Welch. It did. It was a slight amount over it.
    Senator Grams. How does the administration intend to 
identify any offsetting cuts?
    Mr. Welch. Within the U.N.?
    Senator Grams. Yes.
    Mr. Welch. Well, we continue to press for budget 
discipline. We felt that that budget could have come in under 
the previous level. We thought we had good evidence for that. 
When it was not accepted, we disassociated from consensus on 
it. It continues to be our approach to seek budget discipline 
not only in the U.N. regular budget but in all U.N. 
organizations. We have had good success with that. I mean, 
after all, the amount that was involved was quite small, 
especially compared to what had been requested. I think 
substantially less than 1 percent of the total budget.
    I would point out too, Senator, that we have done well in 
the three big specialized agencies which have adopted ZNG 
budgets for the new biennia. That is a year-3 Helms-Biden 
condition which we have delivered on in advance.
    Senator Grams. The amount was only $3 million over.
    Mr. Welch. I think it was, yes, nearly $3 million.
    Senator Grams. It seems like an amount that could have been 
worked in and the budget could have come in at zero growth. I 
do not know if it was an attempt to make a point or what.
    But if I was going to ask you a simple question for a 
definition of what is zero nominal growth budget, what would 
you give a definition to that?
    Mr. Welch. No change from the previous level.
    Senator Grams. Well, thank you very much, Mr. Welch. I do 
not have any other questions.
    Senator Boxer.
    Senator Boxer. No, thank you.
    Senator Grams. Thank you very much. Again, we will be 
submitting some questions to you in writing dealing with the 
questions on Kosovo.
    Mr. Welch. We will answer those quickly. I am sorry I was 
not prepared on that one.
    Senator Grams. That is fine.
    I would just like to leave the record open for at least the 
next 3 working days to allow any other Senators on the 
committee that would like to maybe submit a question in writing 
as well. Thank you very much, Mr. Welch. We appreciate it.
    Mr. Welch. Thank you.
    [Responses to additional questions for the record follow:]

 Responses of Hon. C. David Welch to Additional Questions Submitted by 
                          Senator Jesse Helms

    Question 1. I understand that in the past two years, the number of 
Americans in the U.N. has declined significantly and that few Americans 
were hired during this period. This is a disturbing trend, if true. 
Would you provide us with detailed information about this decline?

    Answer. As we stated in our most recent Report to the Congress on 
Efforts Made by the United Nations and Other International 
Organizations in 1999 to Employ Americans, in the past two years the 
number of Americans in the U.N. Secretariat has declined. On December 
31, 1997, Americans held 368 professional posts subject to geographic 
distribution, representing 15.3% of all such posts filled. By December 
31, 1999, the number of Americans had declined to 339, representing 
13.8% of such posts.
    During the past two years, the U.N. filled 247 professional posts 
subject to geographic distribution. Of these, only 13 (5.3%) went to 
Americans.
    Although the percentage of American citizens remains within the 
U.N. parameter for ``equitable representation,'' we are concerned at 
this trend and are re-invigorating our efforts to place more American 
citizens.

    Question 2. What is the Department of State doing to ensure that 
the U.N. does not retaliate against Americans working in the U.N. 
system as a result of the reform efforts. Is Ambassador Donald Hayes, 
who spearheads negotiations on reform at the U.S. Mission to the U.N. 
focusing on this concern? Are any other folks at the State Department 
monitoring this potential problem? Is the Department dedicating 
sufficient resources to this matter?

    Answer. There is no indication that the U.N. is retaliating in any 
way against Americans as a result of the reform efforts and our 
continued arrears. The U.N. Employment Information and Assistance Unit 
in the Bureau of International Organization Affairs (IO/S/EA), working 
closely with U.S.-U.N., monitors and reports on U.N. staffing and 
hiring to guard against any such activities. They also work with the 
U.N. to ensure that all staff members and applicants for U.N. positions 
receive non-discriminatory and fair treatment.
    Improving U.S. representation on the U.N. Secretariat staff is a 
high priority. This includes ensuring that employment applications of 
U.S. citizens are considered in a competitive, non-discriminatory 
environment. Toward these ends, under the direction of Ambassador 
Donald Hays, the staff of the Mission's Management and Reform section 
is in regular contact with U.N. recruitment and human resources 
management officials, monitoring performance and promoting the hiring 
of Americans. Ambassador Hays is personally involved with the 
coordination and development of a Mission-wide strategy for improving 
U.S. representation on the Secretariat staff, with particular focus on 
ensuring that the most critically important posts in the United Nations 
are filled by U.S. citizens.
    We believe sufficient resources are devoted to this matter. 
However, our full employment economy may well be affecting interest on 
the part of Americans in seeking jobs at the U.N.

    Senator Grams. I would now like to invite Mr. Jim Johnson 
for his testimony this morning. Mr. Johnson again is the 
Associate Director for International Relations and Trade 
Issues, National Security and International Affairs Division of 
the General Accounting Office. He will be, I understand, joined 
by Tet Miyabara as well. So, Mr. Johnson, welcome. Mr. 
Miyabara. Mr. Johnson, we would like to hear your testimony.

     STATEMENT OF HAROLD JIM JOHNSON, ASSOCIATE DIRECTOR; 
   ACCOMPANIED BY: DR. TETSUO MIYABARA, ASSISTANT DIRECTOR, 
INTERNATIONAL RELATIONS AND TRADE ISSUES, NATIONAL SECURITY AND 
  INTERNATIONAL AFFAIRS DIVISION, GENERAL ACCOUNTING OFFICE, 
                         WASHINGTON, DC

    Mr. Johnson. We are both very pleased to be here today to 
participate in your hearing on U.N. reforms. As you already 
mentioned, we are releasing a report that you and Chairman 
Helms had requested earlier on to take a look at the status of 
the reform effort that was put in place about 3 years ago.
    As you know, the United Nations has long been in need of 
management reform. By the mid-1990's the procurement process, 
by the U.N.'s own admission, was in crisis. There was a failure 
of the overall human resource system. Peacekeeping missions in 
Somalia, Rwanda, and Bosnia had failed. And program overlap and 
duplication was a serious problem.
    In response to these problems that the Secretary General 
had identified and also in response to pressure from member 
states, not the least of which was the United States, the 
Secretary General proposed a reform program that consisted 
essentially of three core elements: first, to reform the U.N.'s 
leadership structure; second, to develop a results-oriented 
human capital system; and third, to introduce a programming and 
budgeting process that focused on results. And this is key. We 
have diagramed this so that you could see the relationship 
among those three components, but it is essential in order to 
have a management system that focuses on results to have these 
components in place and working together.
    In summary, the United Nations has substantially reformed 
the leadership and operational part of its reform effort, and 
it has partly implemented the results-oriented human capital 
system. However, while progress has been made, the overall 
objectives of reform have not yet been achieved. Specifically, 
the United Nations has not yet implemented reforms to focus its 
programming and budgeting on managing for results. These 
initiatives would enable the states to hold the Secretariat 
accountable for results, and they are key to the success of the 
overall reform effort because they institutionalize a shift in 
the organization's focus from simply carrying out activities to 
accomplishing specific missions.
    Again, I refer to the graphic display.\2\ You can probably 
see that better in the prepared statement. I apologize for the 
small print.
---------------------------------------------------------------------------
    \2\ The graphics referred to appear in Mr. Johnson's prepared 
statement beginning on page 30.
---------------------------------------------------------------------------
    The major problem for the United Nations that the Secretary 
General wanted to address by reorganizing the way the U.N. does 
business was the fragmentation and lack of cooperation among 
the Secretariat departments and programs. To begin addressing 
this problem, the Secretary General formed a cabinet-style 
senior management group and executive committees.
    The senior management group consists of heads of all the 
U.N. departments and programs and has been meeting weekly since 
1997 to collectively decide on unified U.N. policies. 
Previously, the heads of the departments and programs seldom 
met, usually only at the time of a general assembly. Now there 
is a regular mechanism for developing a single U.N. policy 
direction.
    The four executive committees are organized around the 
U.N.'s core missions of peace and security, development 
operations, humanitarian affairs, and economic and social 
issues. Human rights is also a core mission that cuts across 
all other missions and the executive committee translates the 
senior management group decisions into coordinated action by 
all the committees. This is depicted again on the graphic on my 
right.
    This aspect of the reform initiative has resulted in a more 
coherent and unified leadership at the U.N. It has also begun 
to reduce the competition among the various U.N. agencies and 
foster a more coordinated action in the field. I will just cite 
one example, although there are several.
    When the crisis in Kosovo emerged in late 1998 and 1999, 
the Secretary General, the Deputy Secretary General, the 
Emergency Relief Coordinator, and the High Commissioner for 
Refugees and Human Rights, and other senior managers working 
within the structure developed a single U.N. response. The High 
Commissioner for Refugees was given the lead role at that point 
in time to undertake the U.N.'s initial response. She regularly 
reported to the group through video-conferencing and provided 
real-time information on the situation on the ground. Since top 
level managers were members of the group, the United Nations 
was able to develop a unified response and provide clear 
direction to the departments and programs.
    This type of arrangement has continued with regard to 
Kosovo. It continues with regard to East Timor. There are 
examples in Guatemala where this arrangement has worked very 
well in establishing coherent policies for the various 
departments and agencies of the U.N. to follow.
    Despite these positive signs, the reforms are still in 
progress. The U.N. still does not fully coordinate their 
activities at the working level and in the field. During our 
field work in the Middle East, senior and mid-level 
peacekeepers and political officers told us that coordination 
between them remains at a fairly low level and they continue 
their practice of following instructions from their home 
departments. Moreover, they simply do not see the evidence from 
their instructions that they receive from the department level 
that coordination is taking place on a day-to-day basis.
    We also found impediments to fully integrating country 
development activities. In Mozambique, the U.N. had set up 
various working groups under kind of a thematic approach such 
as for education, water and sanitation. But some of the working 
groups were largely inactive because officials were reluctant 
to spend their time working on issues that were not directly 
related to their agency's priorities. About one-third of the 
U.N. officials we interviewed had no requirement or job 
expectation to work on issues within the U.N.'s development 
assistance framework, and according to these people that we 
talked to, their careers, promotions, reward paths run through 
their own individual agencies, and working on framework issues 
is simply an adjunct that they are not specifically rewarded 
for.
    Now, this brings me to the second area of reform that I 
wanted to discuss: to develop a results-oriented human capital 
system. The Secretariat has partially implemented the 
initiatives to begin transforming its human resource culture to 
one that is results-oriented, responsive, and accountable. 
Fundamental tasks remain to be completed, such as developing 
U.N. procedures that allow the organization to staff critical 
needs and fully automate its personnel data base. Nonetheless, 
in comparison to the situation that existed in the mid-1990's 
when the human capital system was in crisis, positive steps 
have been taken. For example, the Secretariat now has the 
performance based appraisal system and an organization-wide 
code of conduct.
    We noted that the overall plan for reforming the human 
capital system shares many of the elements and values that are 
common to high performing organizations. The GAO has done a 
number of studies in this area to identify best practices in 
those organizations. For example, a hallmark of high performing 
organizations is that the human capital procedures are directly 
linked to achieving organizational objectives. The 
Secretariat's new results-oriented appraisal system requires 
that managers set performance expectations for all staff and 
that the expectations be linked to achieving specific U.N. 
objectives. The new appraisal system is intended to help 
introduce a results-based culture to the Secretariat by 
providing honest feedback to their staff on their performance. 
Ratings are based on a staff member's performance in meeting 
expectations measured by agreed upon indicators. In comparison, 
the old appraisal system did not set work expectations and 
ratings were uniformly high. The Secretariat did not routinely 
compile statistics on staff performance.
    The current situation is depicted on this graph. Again, you 
can probably see it a little better in the prepared statement. 
But what it shows is that now, under the new system which has 
been fully in place for the last couple of rating cycles, most 
individuals, more than half, are rated as fully meeting their 
expectations, and fewer are consistently rated as exceeds 
expectations. Under the old system, just the reverse would be 
seen.
    The U.N. plans to fully put in place its human capital 
reforms over the next 2 to 4 years. We have a few examples to 
illustrate the progress that has been made and the tasks 
remaining. I'll just mention one.
    The Office of Human Resource Management now has basic data 
on all Secretariat staff with a contract of 1 year or longer, 
such as staffing hiring dates, current and past positions, work 
locations, and office nationality, age, and gender. Now, these 
things seem fairly simple, but the U.N. previously did not have 
that kind of information readily available. The office now 
generates regular reports on the Secretariat's work force, 
including projections of retirement by position, grade level, 
type of employment for short-term planning.
    This provides the United Nations with a basic management 
tool, but there are still gaps. For example, an inventory of 
existing staff skills and knowledge has yet to be completed and 
an automated list of job qualifications for each position is 
still being developed.
    This brings me to the third and final area of reform, 
managing for results. A core element of the U.N. reform was to 
introduce processes to hold the U.N. Secretariat accountable 
for results. This would be done by focusing and clarifying the 
objectives member states expect the Secretariat to achieve, and 
second, by adopting results-based programming and budgeting, 
that is, to link budget activities with expected results.
    The United Nations is pursuing these initiatives. However, 
these proposals have not yet been adopted.
    Also, the Secretariat does not have an overall system to 
evaluate the results or impacts of its programs. It does do 
evaluations, but ordinarily the evaluations look at management 
efficiencies or specific outputs and not results of their 
programs. Such a system is necessary to implement results-based 
management. This cycle is depicted again in the chart on my 
right.
    To move this process forward, the Secretary General 
proposed that the General Assembly focus the Secretariat's work 
by limiting the number of new requirements or mandates and 
clearly stating what is expected of the Secretariat. This 
proposal also has not been adopted.
    For 1997 and 1998, the most recent 2-year period for which 
the information was available, we found that the number of new 
tasks mandated by the General Assembly increased from about 250 
to almost 600, and that at least 20 percent, probably more, of 
these mandates had vague and open-ended expectations where 
results really could not be measured.
    The Secretariat has proposed revising the budget process to 
focus on results. He has proposed that the budgets would 
specify not only program costs but also expected program 
results and performance indicators. Member states could, thus, 
hold the Secretariat accountable for results.
    The General Assembly is considering these proposals but has 
not yet approved them. As you well know, some member states 
have expressed concern that results-based budgeting is simply a 
tactic to cut the budget.
    Although the General Assembly has not yet approved the 
results-based budgeting, it did authorize the Secretariat to 
specify expected program results and performance indicators in 
its primary program and planning document, which is the medium 
term plan. So, some progress is being made.
    In conclusion, what distinguishes this U.N. reform from 
others tried in the past is the effort to transform the United 
Nations into a results based organization. The initiatives put 
in place thus far are moving the United Nations in this 
direction. There is also evidence that these reforms are 
strengthening operations on the ground where U.N. services and 
programs are actually being delivered. However, without full 
implementation of the programming, budgeting, and evaluation 
process, focused on performance, the U.N. will not have a 
management system to sustain the gains made and transform the 
organization.
    To help ensure that the United Nations maintains momentum 
in its overall reform effort, we have made a couple of 
recommendations to the Department of State and to the U.S. 
Ambassador to the U.N.
    First of all, we have recommended that at least on an 
annual basis, the State Department report to the Congress on 
what progress is being made in fairly specific areas, such as 
the effectiveness of coordination at the country level, the 
effective implementation of the human capital system, and what 
progress is being made on results-based budgeting.
    We have also recommended that the Ambassador to the U.N. 
work with other member states to take some intermediate steps 
at the Secretariat to implement the results-based budgeting 
process and set measurable goals. As I have mentioned, they are 
in the process of doing that. We have also suggested that they 
require the Secretariat to develop an organizational strategy 
for monitoring and evaluating the results and impacts of 
Secretariat activities.
    That concludes my prepared statement. We will try to answer 
your questions.
    [The prepared statement of Mr. Johnson follows:]

      Prepared Statement of Harold J. Johnson and Tetsuo Miyabara

    Mr. Chairman and Members of the Subcommittee:
    We are pleased to be here today to discuss the status of reforms to 
improve the United Nations (U.N.). Our remarks are based on our report 
prepared for this Committee and released today, which provides a 
comprehensive analysis of the reforms.\1\
---------------------------------------------------------------------------
    \1\ United Nations: Reform Initiatives Have Strengthened 
Operations, but Overall Objectives Have Not Yet Been Achieved (GAO/
NSIAD-2000-150, May 10, 2000).
---------------------------------------------------------------------------
    In recent years, the United Nations has had fundamental problems. 
In 1994, the U.N.'s inability to procure goods and services fairly and 
on time reached a crisis. Also there was an overall failure of its 
human resources system to staff critical posts with the right people. 
Peacekeeping missions in Somalia, Rwanda, and Bosnia failed to 
accomplish their missions. By 1997, the Secretary General stated that 
the United Nations had become fragmented, inflexible, and, in some 
areas, superfluous. Member states demanded improvements. In response, 
the Secretary General proposed a reform program consisting of three 
core elements--(1) restructuring U.N. leadership and operations, (2) 
developing a performance-based human capital system, and (3) 
introducing programming and budgeting processes focused on results. The 
Secretary General stated that these elements formed an integrated 
program; all were necessary to create a United Nations that achieved 
results and continuously improved. While not all of the reform elements 
applied to the entire United Nations,\2\ the overall program provided a 
model for a U.N.-wide reform process. The Secretary General set the end 
of 1999 as the target date to put the reforms in place. Today, I will 
discuss the status of the reform program and highlight some results.
---------------------------------------------------------------------------
    \2\ The United Nations is composed of the Secretariat, which 
carries out much of the work mandated by member states, and the 
programs, such as the High Commissioner for Refugees, which conduct 
specific lines of work.
---------------------------------------------------------------------------
                                summary
    The United Nations has substantially restructured its leadership 
and operations and partly implemented a merit-based and performance-
oriented human capital system, and these reforms have strengthened U.N. 
operations. However, while progress is being made, the overall 
objectives of the reform have not yet been achieved. Specifically, the 
United Nations has not yet implemented reforms to focus its programming 
and budgeting on managing the Secretariat's performance. These 
initiatives would enable member states to hold the Secretariat 
accountable for results and are key to the success of the overall 
reform because they institutionalize a shift in the organization's 
focus from carrying out activities to accomplishing missions. As figure 
1 illustrates, U.N. reform is an interrelated process and requires that 
all core elements be in place to succeed.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               background
    The United Nations carries out a wide range of activities, 
including peacekeeping in locations such as Kosovo, East Timor, and the 
Congo; humanitarian and refugee operations in Sudan and Tajikistan; and 
thousands of development, economic, social, and human rights projects 
worldwide. Organizationally, the United Nations is comprised of three 
types of entities. First are the member states' governing or 
intergovernmental bodies, such as the Security Council and the General 
Assembly, which set U.N. objectives and mandate activities in 
accordance with the U.N. Charter. Second is the Secretariat, the 
central working unit of the United Nations, which carries out work 
mandated by the governing bodies. The Secretariat consists of the 
Secretary General, whom the U.N. Charter specifies as the chief 
administrative officer of the United Nations, and the staff necessary 
to carry out the mandated work. Third are the U.N. programs and funds, 
which the General Assembly authorized to address specific areas of work 
of continuing importance. Examples of the programs and funds are the 
U.N. Children's Fund and the U.N. Development Program. Many of the 
programs are authorized to have their own governing bodies and budgets 
(paid for by voluntary contributions from participating nations). 
Consequently, while the Secretary General is the U.N.'s highest-ranking 
official and his reform proposals influence these programs, he does not 
have authority to direct the programs to undertake reforms.
    The expenses of the Secretariat are funded through regular budget 
assessments of the U.N. member states. The U.N. regular budget for the 
biennium 2000-2001 is $2.5 billion, of which the U.S. contribution is 
assessed at 25 percent.\3\ Member states are assessed separately for 
U.N. peacekeeping activities. For 2000-2001, the cost of U.N. 
peacekeeping operations is estimated to be $3.6 billion, of which the 
United States is to contribute 25 percent.\4\ Member states are also 
assessed for the costs of international tribunals on war crimes and 
genocide. Finally, the United Nations receives voluntary, or 
extrabudgetary, contributions for the funds and programs--estimated to 
be $3.7 billion for the 2000-2001 biennium. The United States has 
historically paid about 25 percent. Figure 2 shows U.N. budgets for the 
last three bienmums.
---------------------------------------------------------------------------
    \3\ Members' assessments for the regular budget are determined by a 
scale of assessments approved by the General Assembly on the basis of 
advice from the Committee on Contributions. Each member has a single 
vote in the General Assembly regardless of its assessment.
    \4\ U.N. peacekeeping is assessed on an annual basis. The U.S. 
share of U.N. peacekeeping is 30.4 percent; the U. S. Congress has 
capped U.S. contributions at 25 percent since 1994.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       u.n. leadership and operations substantially restructured
    The United Nations has substantially restructured its operations, 
and we found this has provided more cohesive and unified leadership for 
the organization. A major problem for the United Nations has been the 
fragmentation and lack of cooperation among the Secretariat departments 
and the programs. To begin addressing this problem, the Secretary 
General formed (1) the senior management group and (2) the executive 
committees. The Senior Management Group consists of the heads of all 
U.N. departments and programs and has been meeting weekly since 
September 1997 to collectively decide on unified U.N. policies. 
Previously, the heads of some of the programs met only once a year at 
the General Assembly. Now there is a regular mechanism for developing a 
single U.N. direction. The four executive conimnittees are organized 
around the U.N.'s core missions--peace and security, development 
operations, humanitarian affairs, and economic and social issues. Human 
rights is a core issue that cuts across all U.N. missions. Consisting 
of the senior managers of the departments and programs in each area, 
the executive committees try to translate senior management group 
decisions into coordinated action by all U.N. entities, Figure 3 
provides an overview of the U.N.'s leadership structure as it exists 
today and shows that the intended goals are to carry out more unified 
and effective U.N. activities, particularly in the field and at the 
working level where services are delivered.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We found that these reform initiatives have resulted in a more 
coherent and unified leadership for the United Nations and have begun 
to reduce competition among the various U.N. agencies and to foster 
more coordinated actions in the field. The following examples help 
illustrate areas where the reforms have made a difference.

  <bullet> During the Kosovo crisis, the Secretary General, the Deputy 
        Secretary General, the Emergency Relief Coordinator, the Fligh 
        Commissioners for Refugees and Human Rights, and other senior 
        managers used the senior management group to develop a single 
        U.N. response. The High Commissioner for Refugees would 
        regularly report to the group through video-conferencing and 
        provide real-time information on the situation on the ground. 
        Since the top-level managers were members of the group, the 
        United Nations was able to develop a unified response and 
        provide clear direction to the departments and programs. One 
        initial direction was that the High Commissioner's office would 
        lead the U.N.'s initial response to the crisis and other U.N. 
        entities would support the Commissioner. As the U.N.'s role in 
        Kosovo evolved, the Secretary General continued to work through 
        the Senior Management Group to develop a unified concept for 
        U.N. operations and to ensure that all departments and programs 
        pooled their resources to support U.N. tasks in humanitarian 
        affairs, civilian police, and civil administration. According 
        to senior U.N. officials, the management group was also used to 
        ensure that all heads of U.N. departments and programs had a 
        consistent understanding of the U.N.'s mandate in Kosovo, 
        particularly for their dealings with the Organization for 
        Security and Cooperation in Europe and the World Bank, which 
        were also responsible for tasks in Kosovo.

  <bullet> Leadership by the executive committee on peace and security 
        enabled various U.N. departments to integrate some peacekeeping 
        efforts and has resulted in better planning for new missions. 
        For example, in developing plans for the U.N. operation in East 
        Timor in 1999, the Under Secretary General for Political 
        Affairs provided the group a full and candid assessment of the 
        political situation and strategies for conducting the 
        referendum, according to members of the executive committee. 
        According to a senior political officer in the Department of 
        Political Affairs, his openness with his priorities paved the 
        way for unified strategy and planning among his department, the 
        Department of Peacekeeping Operations, the Human Rights 
        Coordinator, and others on the committee. As a result, the plan 
        for the East Timor operation was more comprehensive and better 
        integrated than other U.N. peacekeeping plans we have examined 
        in our past work, and resulted in deploying the mission more 
        quickly and with fewer problems than past complex operations. I 
        should add that these reforms do not address the capacity of 
        the United Nations to undertake the scale of its current 
        peacekeeping responsibilities or the organizational limits of 
        the United Nations in leading operations calling for the use of 
        force.\5\
---------------------------------------------------------------------------
    \5\ United Nations: Limitations in Leading Missions Requiring Force 
to Restore Peace (GAO/NSIAD-97-34, Mar. 27, 1997).

  <bullet> In Guatemala, initiatives to integrate U.N. development 
        activities under the development assistance framework have 
        helped improve the effectiveness of U.N. support for the 1994 
        peace accords by coordinating the work of 17 separate U.N. 
        agencies. The U.N.'s efforts to demobilize combatants, which 
        officials of the U.S. Agency for International Development 
        described as a model for international cooperation, resulted in 
        U.N. agencies conducting joint planning and taking steps to 
        avoid duplicative programming. For example, the U.N. Population 
        Fund had incorporated reproductive health activities into the 
        U.N. Children's Fund and the U.N. Development Program's 
        development projects. In addition, all U.N. agencies fully 
        coordinated their efforts in an effective response to Hurricane 
        Mitch and in producing a country development report, which for 
        the first time included a candid section on human rights. 
        Although the government objected to this report, all U.N. 
---------------------------------------------------------------------------
        agencies in country were united in defending the report.

    Despite improvements in some of the areas, we also found that the 
reforms are still in process and that U.N. agencies do not fully 
coordinate their activities at the working levels and in the field. The 
following examples illustrate areas where we found some continuing 
weaknesses in U.N. cooperation.

  <bullet> The improved policy coordination and information sharing 
        apparent at the U.N.'s highest levels and on critical issues 
        are less evident in day-to-day activities at working levels of 
        the organization. Several U.N. officials who recently worked 
        both in U.N. headquarters and in field peacekeeping operations 
        confirmed the need for increased interdepartmental coordination 
        and cooperation on day-to-day policy and operational matters. 
        During our fieldwork in the Middle East and Guatemala, senior 
        and mid-level peacekeeping and political officers told us that 
        coordination between them remains at a low level and they are 
        continuing their practice of following instructions 
        respectively from both the Department of Peacekeeping 
        Operations and the Department of Political Affairs They do not 
        see evidence from their instructions that these departments are 
        coordinating their work on a day-to-day basis.

  <bullet> We also found impediments to fully integrating country 
        development activities. In Guatemala, the common country 
        assessment was delayed because agencies sought to include 
        development indicators in line with their own mandates and 
        programming, rather than agreeing on overall indicators of U.N. 
        success. In Mozambique, U.N. officials said that some of the 
        country team's working groups were largely inactive--such as 
        education and water and sanitation--because officials were 
        reluctant to spend time working on issues not directly related 
        to their agencies' priorities. About one-third of the U.N. 
        officials we interviewed had no requirement or job expectation 
        to participate in the U.N. development assistance framework. 
        According to these officials, their career, promotion, and 
        reward paths are through their parent organizations, and their 
        work on the framework is an adjunct to their agency duties.
 reforms to develop a results-oriented human capital system partly in 
                                 place
    The Secretariat has partly implemented initiatives to begin 
transforming its human resources culture into one that is results 
oriented, responsive, and accountable. Fundamental tasks remain to be 
completed, such as developing U.N. procedures that allow the 
organization to staff critical needs and fully automating its personnel 
database. Nonetheless, in comparison to the situation in 1994, when the 
human capital system was in crisis, positive steps have been taken, 
such as implementing a merit-based appraisal system and a U.N.-wide 
code of conduct. Also, the overall plan for reforming the human capital 
system shares the elements and values that are common to high-
performing organizations.\6\ For example, a hallmark of high-performing 
organizations is that human capital procedures are directly linked to 
achieving organizational objectives. The Secretariat's new merit-based 
appraisal system requires that managers set performance expectations 
for all staff and that the expectations be linked to achieving U.N. 
objectives.
---------------------------------------------------------------------------
    \6\ GAO reports on human capital describe the approach that leading 
public and private sector organizations have taken. See, for example, 
Human Capital: A Self-Assessment Checklist for Agency Leaders (GAO/GGD-
99-179, Sept. 1999).
---------------------------------------------------------------------------
    Implementation of the new appraisal system helps illustrate the 
progress the Secretariat has made in reforming its human capital 
system. The appraisal system is intended to help introduce a results-
based culture to the Secretariat by providing honest feedback to staff 
about their performance. Ratings are based on a staff member's 
performance in meeting expectations, as measured by agreed-upon 
indicators. In comparison, the old appraisal did not set work 
expectations; ratings were uniformly high, with about 80 percent of 
staff receiving the highest rating; and the Secretariat did not 
routinely compile statistics on staff performance. Figure 4 shows the 
distribution of ratings for the most currently available period and 
demonstrates that most staff are now rated as meeting expectations and 
that there is a relative dispersion in the ratings.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Secretary General has also followed up on the application of 
the appraisal system. For the 1998/99 appraisal cycle, the Deputy 
Secretary General sent letters to two departments that had ratings 
markedly higher than the other departments. The letters instructed the 
departmental chiefs to counsel supervisors on the requirements for fair 
and well-documented ratings. He also sent letters to the promotion 
board informing the board that the ratings in these departments might 
be inflated and to consider this in its promotion decisions. Finally, 
in November 1999, the Under Secretary General issued an administrative 
instruction that set out the consequences of receiving less than fully 
successful performance ratings, ranging from not receiving the annual 
salary pay increase to dismissal, depending on the length of time the 
staff member had not fully met expectations.
    The United Nations plans to fully put into place its human capital 
reforms over the next 2-4 years. The following examples help illustrate 
some of the progress made and the tasks remaining.

  <bullet> Beginning in 1999, the Department of Management extended the 
        use of the Integrated Management Information System--the 
        Secretariat's data system on budget, finances, management, and 
        personnel--to the entire Secretariat. This provided the Office 
        of Human Resources Management with basic data on all 
        Secretariat staff with a contract of 1 year or longer, such as 
        staff hiring date, current and past positions, work location 
        and office, nationality, age, and gender. The office now 
        generates regular reports of the Secretariat workforce, 
        including projections of retirements by position, grade level, 
        and type of employment for short-term planning. While this 
        development provides the United Nations with a basic management 
        tool, several steps need to be taken to make the personnel 
        information system fully functional, including linking the 
        databases electronically with all offices (currently the 
        Secretariat has real-time access to personnel data for 48 
        percent of professional staff--those located at headquarters in 
        New York and at the offices in Geneva and Vienna); completing 
        an inventory of existing staff skills and knowledge; and 
        automating a list of job qualifications for each Secretariat 
        position.

  <bullet> The Secretariat has begun identifying and filling critical 
        needs projected for the next 2-4 years but has not begun 
        developing a long-range workforce planning strategy. This will 
        start once basic tools are in place and after the General 
        Assembly debates the U.N.'s future role at the millenium 
        assembly in the summer and fall of the year 2000.

  <bullet> The Office of Human Resources Management has developed a 
        comprehensive plan to improve recruitment and mobility, which 
        includes lateral moves, job exchanges, temporary assigmnents, 
        and job rotation systems within departments and field missions. 
        The office discussed these proposals with staff committees 
        during 1999 and plans to continue discussing the proposals 
        through April 2000, as part of its policy to consider all staff 
        views regarding human capital reforms. At the end of April 
        2000, the Office plans to complete a report on the proposal and 
        submit it to the General Assembly, which must approve any 
        changes to staff rules and regulations needed to implement the 
        proposal.
             reforms to manage for results not yet adopted
    A core element of the U.N. reform was to introduce processes to 
hold the U.N. Secretariat accountable for results by (1) focusing and 
clarifying the objectives member states expected the Secretariat to 
achieve; and (2) adopting performance-oriented programming and 
budgeting, that is, linking budgeted activities with performance 
expectations and measures. The United Nations is considering these 
initiatives, including the use of performance measures in its principal 
planning document--the medium-term plan. However, these proposals have 
not yet been adopted because some member states believe they are 
tactics to cut the budget. Another problem is that the Secretariat does 
not have an overall system to monitor and evaluate the results and 
impact of its programs. Such a system is necessary to implement 
performance management. Figure 5 depicts the U.N. program planning 
cycle and the status of the key initiatives to modify it.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Secretary General proposed that the General Assembly focus the 
Secretariat's work by limiting the number of new work requirements or 
mandates for the Secretariat and clearly stating what it expected the 
Secretariat to do. These initiatives were not adopted. For 1997 and 
1998, the most recent 2-year period for which information was 
available, we found that the number of new tasks mandated by the 
General Assembly increased from 246 to 587 and that 20 percent of these 
mandates had vague or open-ended expectations.
    The Secretary General also proposed revising the budget process to 
focus on performance. He proposed that budgets would specify not only 
program costs but also expected program results and performance 
indicators. Member states could thus hold the Secretariat accountable 
for results. The Secretary General further proposed intermediate steps 
to prepare for and build confidence in this results-based approach, 
such as developing acceptable and reliable performance indicators; 
incorporating qualitative information in the performance measures; and 
pilot-testing proposed changes. The General Assembly is considering 
these proposals but has not yet approved them. Some member states are 
concerned that performance-oriented budgeting is a tactic to cut the 
U.N. budget. For example, in 1998, the Group of 77--a block of over 130 
U.N. member states classified as developing countries took the position 
that results-based budgeting was a radical departure from accepted 
practices. They stated there should be, no predetermined ceilings on 
budgets, that all mandates should be fully funded, and that any attempt 
to use results-based budgeting to cut the budget would be resisted. 
Although the General Assembly has not yet approved performance 
budgeting, it authorized the Secretariat to specify expected program 
accomplishments and performance indicators in its primary program 
planning document--the medium-term plan.
    Member states were also concerned that the Secretariat lacked a 
system to monitor and evaluate program results and impact. Currently, 
numerous U.N. departments monitor their programs, and over 20 U.N. 
departments and offices have their own evaluation units. However, in 
the absence of results-oriented budgeting, monitoring largely involves 
counting outputs, such as the number of conferences held or staff years 
spent. Evaluations do not systematically provide information on program 
impact and whether objectives have been met. Furthermore, the United 
Nations has not developed a centralized strategy to improve monitoring 
and evaluation. Presently there is no centralized strategy that 
identifies limitations or gaps in existing efforts, employs guides to 
help provide some consistency and reliability in evaluation, or creates 
an approach to unify monitoring and evaluation functions to support 
performance-oriented budgeting.
                    conclusions and recommendations
    What distinguishes this U.N. reform from others tried in the past 
is the effort to transform the United Nations into a performance-based 
organization by implementing interrelated reform initiatives. The 
initiatives put into place thus far--substantially realigning the 
organization and introducing a merit-based appraisal system tied to 
U.N. objectives--are moving the United Nations in this direction. There 
is also evidence that these reforms are strengthening operations on the 
ground, where United Nations services and programs are actually 
delivered. However, without fully implementing programming, budgeting, 
and evaluation processes focussed on performance, the U.N. will not 
have the management systems to sustain the gains made and transform the 
organization.
    To help ensure that the United Nations maintains momentum in its 
overall reform efforts, our report recommends that the Secretary of 
State report annually to the Congress on the status of the Secretary 
General's reform plan, including an assessment of whether U.N. agencies 
and departments are effectively coordinating efforts at the country 
level, effectively implementing a results-oriented human capital 
system, and effectively implementing a performance-oriented management 
system.
    Additionally, to support the United Nations in transforming the 
organization into one that is performance oriented and continuously 
improves, we recommend that the Secretary of State and the Permanent 
Representative of the United States to the United Nations work with 
other member states to:

  <bullet> take intermediate steps at the Secretariat to implement 
        results-oriented budgeting, such as setting measurable goals 
        and performance indicators for each section of the budget, and

  <bullet> require the Secretariat to develop an organizational 
        strategy for monitoring and evaluating the results and impact 
        of Secretariat activities.

    The Department of State, the U.S. Mission to the United Nations, 
and the United Nations generally agreed with our findings on U.N. 
reform. State and the U.S. Mission also said they would report 
regularly to the Congress, in the context of the oversight process, on 
the status of the U.N. reform plan and would continue working on 
improving the U.N.'s planning, budgeting, and evaluation systems.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared testimony. I would be happy to respond to any questions you or 
other members may have.

    Senator Grams. Thank you very much, Mr. Johnson. I 
appreciate your testimony.
    Dr. Miyabara, did you have anything you wanted to add, or 
are you in a support role here?
    Dr. Miyabara. I am in a support role, and I think the 
statement fairly summarizes the work that we did on the United 
Nations.
    Senator Grams. Thank you very much, Doctor.
    Mr. Johnson, I would just like to ask one quick question 
off the bat. If GAO has come up with this type of a report, why 
cannot or why has the U.N. not done something similar, or have 
they?
    Mr. Johnson. Well, they do assess their progress on a 
periodic basis. I think they have probably a more difficult 
time than we do in being objective about what they look at. But 
they do assess progress.
    Dr. Miyabara. The last progress report they made on reform 
was in 1998, and they did have this as an agenda item for the 
last General Assembly, but they did not take it up. They plan 
to take it up next time around, but there is no report yet out. 
So, in essence, this is the only overall report on U.N. reform 
that exists right now.
    Senator Grams. That is what I was going to ask. So, in 
other words, the Secretariat or the General Assembly has not 
really had a report that it can study so it can gauge what 
reforms have been made or the progress of these reforms.
    Dr. Miyabara. No.
    Mr. Johnson. Not of this nature, no.
    Senator Grams. Now, would you want to explain more about 
exactly what the chart represents? I know the top arrow is 
darker. The arrow to my right is a little lighter in color, and 
then the third arrow. Is this a similar type of assessment the 
U.N. is doing itself, or are you looking at other things that 
the U.N. is not looking at?
    Mr. Johnson. Well, I do not think we are looking at things 
the U.N. is not looking at, but I do not believe they have yet 
adopted, although we have shown them our concept of how the 
parts fit together and they are in agreement with that concept.
    But essentially what we are looking at here with the darker 
arrow illustrates the restructuring of the leadership function 
at the headquarters level. That part of the reform effort has 
been put in place, although it has not, as we mentioned, 
completely filtered down to the working levels and needs to be 
constantly monitored.
    The next arrow, not quite so dark, represents the partial 
implementation of the human capital system. For example, the 
performance appraisal system is designed again to link into the 
notion of the results orientation, and finally the lighter 
arrow illustrates the results-based budgeting component of the 
reform, which really are not in place yet.
    Senator Grams. Not in place or not intended to do?
    Mr. Johnson. Well, the Secretariat and the Secretary 
General have been promoting this idea. They have urged the 
General Assembly to adopt performance based budgeting. So, far 
the General Assembly has not adopted it. The Group 77 has been 
somewhat vocal in their opposition to adopting that kind of 
concept or the sunset provision where a program would have a 
particular period of life. Apparently they feel that this is a 
way to undercut the budget and so far they have not supported, 
although the General Assembly has authorized some pilot 
projects in that area and they did authorize the new mid-term 
plan to be designed in a way that will show results that are 
expected. So, progress is being made in that area--and 
hopefully, it will be adopted. I know our State Department has 
been urging that for a long period of time. It is the final 
component of this process that will help hold the Secretariat 
accountable for achieving what they are supposed to achieve and 
not just provide outputs.
    Senator Grams. So, does the U.N. really believe that it has 
programming monitoring and evaluation in place that would 
reflect the same guides you are?
    Mr. Johnson. That depends on who you say the U.N. is. There 
are those in the U.N. who believe that they have a process in 
place to evaluate program results, but when we submitted our 
report to the Secretary General for his comment, he essentially 
agreed with us, that he is not receiving the kind of 
information that he needs to know whether or not programs are 
achieving their results.
    So, while there are components, there are piecemeal parts 
of the evaluation process, there is no systematic way of 
evaluating all the programs to know which ones need to be 
modified, what the high priorities ought to be or where 
resources need to be placed.
    Dr. Miyabara. Let me add just a couple of things, first, 
about the overall concept. The United Nations, and the 
Secretary General in particular, have never put their reform in 
this context.
    Senator Grams. Is this kind of a typical way to assess an 
operation like this, or do you have to create this special to 
apply it to the U.N.?
    Dr. Miyabara. This was clearly intended by the United 
Nations, but they have never communicated this clearly in part 
because they were trying to transform the organization into one 
which was focused on getting results, being successful at 
peacekeeping and other such things. But that would also force 
them to then put the results next to how much they were 
spending in those categories.
    One problem that they have had--and that gets back to 
results-based budgeting--is that the Group of 77 in particular 
had been opposed to results-based budgeting for a number of 
reasons. But I will quote one thing they have actually said. 
``The Group's foreign ministers had declared''--and this is the 
Group of 77 composed of approximately 130 member states--``that 
there should not be any ceiling on the budget and that the 
Secretary General should be provided with adequate resources to 
carry out all mandated activities.''
    The next thing that is said, in the context of results-
based budgeting, is that ``the program budget should be 
considered under existing rules, that is, without putting 
results next to the actual budget. Any attempt to use results-
based budgeting and sunset provisions without the express 
approval of the General Assembly would be wrong and would be 
resisted.''
    So, what they are concerned about is, in stark terms, 
putting results, which they do not completely agree with on 
measurement, next to the amounts that are being spent. And that 
is the concern underlying results-based budgeting, or at least 
part of the concern.
    Senator Grams. Mr. Johnson, in your report you discuss 
increased efficiencies and effectiveness from the 
consolidation. If this is so, why are there more U.N. posts and 
more personnel than previously?
    Mr. Johnson. Well, the general answer to that is that they 
have gotten additional mandates. There were some cuts in 
various areas when they did the consolidation and, for example, 
when they consolidated the humanitarian affairs and the 
coordinator for humanitarian assistance, there were some cuts 
that were made in the number of positions, but those were taken 
up by new mandates in other areas. So, I think you have some 
details on where those were at.
    Dr. Miyabara. Yes, I do have some details.
    We talked about the increased number of mandates and 
resolutions passed by the General Assembly. One of the 
mandates, or continuing resolutions, has been a focus on 
Africa. So, they actually cut 50 positions from the Department 
of Economic and Social Affairs. Some of these positions were 
shifted over to the Africa, the new agenda for development and 
economic and social development in Africa, which increased by 
12, which is about a 20 percent increase in their staffing 
level.
    Other locations it increased were the Department of 
Management, which increased by about 25 positions.
    So, even though the consolidation has been reducing posts 
and abolishing them, no people actually lost jobs as a result. 
They were transferred to other positions in the Secretariat, 
higher priority positions.
    Senator Grams. Was this for convenience or was it actually 
necessary?
    Dr. Miyabara. The General assembly mandated that no staff 
were to lose their jobs as a result of the consolidation.
    Senator Grams. So, with the consolidation then, would you 
say it resulted in any great or greater effectiveness or 
efficiency in the way it has been done or consolidated, Mr. 
Johnson? If you could maybe give a specific example.
    Mr. Johnson. Yes, I think they are more efficient in the 
way they run their programs, and you see that in a couple of 
areas. As I mentioned, the Coordinator for Relief Assistance 
operates in a much more efficient way in the way they do 
consolidated appeals and coordinate those programs. The other 
area that seems to be more efficient is in the operations of 
the regional programs where they have also done some 
consolidation.
    I would comment that while there was a mandate that none of 
the employees would lose their jobs, there also were vacant 
positions to place those people in.
    Senator Grams. One of the best indicators of real reform is 
whether it substantially affects spending levels in the U.N. 
budget----
    Mr. Johnson. Right.
    Senator Grams [continuing]. Showing that priorities have 
been established and are being addressed. Are there any signs 
of tangible reform in the biennial budget adopted by consensus 
in the U.N. General Assembly last December?
    Dr. Miyabara. One of the tangible things that I've actually 
seen is an increase in positions in some of the priority areas, 
in human rights, for example. Human rights increased both their 
budget and their positions by quite a bit. When we were in the 
field, we actually witnessed human rights being more 
operational.
    I think in 1997 there were only two actual operations 
officers, that is, people who would go into the field and who 
would work in countries that had human rights abuses. They have 
increased that to over 1,000 operational positions. Previously 
they were working on policy issues, but now they are actually 
working in the field. So, that is one area in which I think 
they have actually made quite a bit of improvement, and you can 
tangibly see the change in the budget.
    Aside from that, there are relatively modest changes in the 
numbers of people and the actual changes in the budget numbers.
    Senator Grams. Going back to the resolution where anybody 
could not lose their job in consolidating, is that what you 
said earlier?
    Dr. Miyabara. Yes. There have been several resolutions 
which have said that as a result of the consolidations and some 
of the efficiencies, staff were not to lose their jobs.
    Senator Grams. So, they had to find places to park these 
positions then, and that has been the reorganization.
    Dr. Miyabara. That has not been the complete 
reorganization, but that has been at least part of it. They 
have tried to move people to places in which they could be more 
productive.
    Senator Grams. Regarding personnel, can the U.N. now count 
its staff and let you know how many people they actually have 
on board even with its new computer systems?
    Mr. Johnson. Yes.
    Senator Grams. They can tell you now exactly how many 
employees they have.
    Mr. Johnson. Right, they do have that in their new 
information management system. There are some problems with the 
system still. As you know, that has been a troubled system for 
a long period of time, but they are in a position now where 
they can tell you how many people they have on board on any 
particular date both within the regular budget, the extra-
budgetary process, as well as part-time and consultants. So, 
they can give you that number.
    Senator Grams. The Secretariat has said that they were 
actually doing a better job of evaluating and monitoring these 
programs. Your report indicates that the U.N. does not have a 
strategy or an overall evaluation system that can 
systematically report on the program results. Are you concerned 
that the U.N. does not recognize that it has a major problem in 
this area? Or does it?
    Mr. Johnson. Well, I think again the Secretary General 
recognizes this is a concern, is a need that he has that he 
knows what benefits are being achieved from the various 
programs. I would emphasize the notion that they need a 
systematic way of going through all their programs and 
activities to measure results. As I mentioned, they do perform 
some real evaluations where they try and measure results, but 
it is on kind of a piecemeal basis and not a systematic 
approach.
    Senator Grams. You have also suggested one of the failings 
of the reform initiative thus far has been to create a results-
oriented approach which allows one to measure improvement in 
getting the job done throughout the U.N. system.
    Mr. Johnson. Yes.
    Senator Grams. Is a results-oriented approach being 
implemented in the area of peacekeeping?
    Mr. Johnson. Peacekeeping is a troublesome area, and there 
are a number of reforms that are needed. The basic problem in 
peacekeeping is the lack of capacity within DPKO to carry out 
the planning, logistics, and support activities that they are 
required to do in New York. They also are in need of a process 
to measure results, and that process we have not seen.
    Dr. Miyabara. One of the problems in measuring results is 
that you have to specify what the objectives are so you can 
measure results against those objectives. When you have clear 
criteria, you can do it. In peacekeeping it is particularly 
difficult because, as we pointed out in the report, there are 
some situations in which member states do not agree on what the 
criteria are.
    For example, we mentioned Kosovo in the report, and one of 
the major questions there, as you well know, is, whether Kosovo 
becomes independent or remains part of Serbia? There is no 
resolution of that. Until you get resolution of that, it is 
very hard to set up objectives about what you are supposed to 
do on very simple things like how to hook up your phone lines 
or your electricity grid.
    One of the problems in peacekeeping is that you have to set 
clear objectives. One of the problems in evaluating 
peacekeeping is that unless you have those objectives, you are 
not sure what standard you are evaluating against.
    Senator Grams. Mr. Johnson, are there limitations remaining 
on the U.N. in its ability to undertake peacekeeping?
    Mr. Johnson. Yes, and it is primarily in the area that I 
mentioned with the lack of capacity at the DPKO in New York. 
They lost a substantial amount of capacity when they lost the 
gratis military personnel. So far the General Assembly has not 
seen fit to replace those numbers of people. The ACABQ----
    Senator Grams. The budget committee.
    Mr. Johnson. Yes, essentially their budget committee has 
called for more specificity in how these people would be used, 
but so far they have not added adequate capacity to the 
peacekeeping operation in New York to do the planning, 
logistics, support, finance, personnel, all the things that New 
York needs to do.
    Senator Grams. Without even expanding the peacekeeping 
operations, they have work to do.
    Mr. Johnson. Yes. They were stretched already before we 
went into the large operations. I would not necessarily want to 
blame some of the difficulties we are seeing now in Sierra 
Leone on problems in New York, although I am sure there are 
some links there, but clearly they were overstretched before we 
got into some of these larger operations.
    Dr. Miyabara. I wonder if I could just add one thing. 
Although the United Nations has actually improved some of its 
capacity to support peace operations, one of our studies 
indicates there are organizational limits of the United Nations 
that increase the risk of U.N.-led operations calling for the 
use of force. These limitations have been overcome when a 
nation with sufficient military prestige, credibility, and the 
commitment of military forces necessary to conduct operations 
has taken the lead role.
    We did a study in 1997 that looked at every operation that 
was either a Chapter 7 or that called for the use of force and 
came to the conclusion that there were organizational limits to 
what the U.N. could do in these situations. The mandate for 
Sierra Leone actually calls for the U.N. to use the means 
necessary to accomplish its mandate, which is one of the code 
phrases that we used in identifying operations that called for 
the use of force. We found that there are basic limitations 
that have to be considered before approving these sorts of 
operations.
    Senator Grams. I would just like to sum up the questions by 
asking--the focus of this hearing has been on the U.N.'s reform 
and its efficiency. So, Mr. Johnson, based on your work, what 
do you recommend to ensure effective reforms are adopted 
system-wide in the sprawling United Nations?
    Mr. Johnson. Well, I mentioned a couple of the specific 
recommendations that we made to the Secretary of State to keep 
the pressure and focus on reforms that the U.N. would 
undertake.
    An overall recommendation that we would have for the U.N. 
is to focus on the type of structure that we have outlined in 
this diagram and recognize that all of those parts need to come 
together in some reasonable timeframe in order to have a 
reformed organization. We fully recognize that organizational 
change is a difficult thing, and it takes a lot of time. 
Changing an organizational culture is never easy in any 
organization, let alone one that is multinational the way the 
U.N. is.
    I think one thing that is in favor right now of the current 
reform effort is that it has full support of the Secretary 
General. That we were quite impressed with. He has taken a very 
strong leadership role personally to see to it that these 
reforms are implemented. He cannot do everything himself, but I 
think he set up a structure in his leadership core that will 
help him move these reforms forward. In that respect, I think 
that there is greater hope for success in this reform effort 
than we have seen in past reforms that have been attempted at 
the U.N.
    Senator Grams. So, do you believe the commitment is there 
for the reforms?
    Mr. Johnson. Yes, I do believe the commitment is there on 
the part of the Secretary General and his top leadership. 
Whether it has filtered down throughout the organization I 
think is of some question, but again that takes time. It 
requires leadership and leadership that is committed. So, 
hopefully over a period of time it will occur.
    Senator Grams. Well, Mr. Johnson, Dr. Miyabara, thank you 
very much for your testimony and for your answers. Again, I 
would also like to remind you I would like to leave the hearing 
open for about 3 days to allow any additional questions that 
Senator Boxer or any other member of the committee might have 
and would want to forward to you in writing. So, I would 
appreciate any quick response. Thank you very much. Appreciate 
it.
    The hearing is complete.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
